<html>
<title> - NOMINATION OF CARL E. WIEMAN, Ph.D., TO BE ASSOCIATE DIRECTOR FOR SCIENCE, OFFICE OF SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE PRESIDENT</title>
<body><pre>[Senate Hearing 111-985]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-985

                  NOMINATION OF CARL E. WIEMAN, Ph.D.,
                 TO BE ASSOCIATE DIRECTOR FOR SCIENCE,
                OFFICE OF SCIENCE AND TECHNOLOGY POLICY,
                   EXECUTIVE OFFICE OF THE PRESIDENT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
66-488 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 20, 2010.....................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Udall.......................................     3

                               Witnesses

Hon. Mark Udall, U.S. Senator from Colorado......................     2
Carl E. Wieman, Ph.D., Associate Director-Designate for Science, 
  Office of Science and Technology Policy, Executive Office of 
  the President..................................................     3
    Prepared statement...........................................     5
    Biographical information.....................................     6

                                Appendix

Hon. Bill Nelson, U.S. Senator from Florida, prepared statement..    31
Response to written questions submitted by Hon. Bill Nelson to 
  Carl E. Wieman, Ph.D...........................................    31

 
                  NOMINATION OF CARL E. WIEMAN, Ph.D.,
                 TO BE ASSOCIATE DIRECTOR FOR SCIENCE,
                    OFFICE OF SCIENCE AND TECHNOLOGY
               POLICY, EXECUTIVE OFFICE OF THE PRESIDENT

                              ----------                              


                         THURSDAY, MAY 20, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:53 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I'll go ahead and call this hearing to 
order. I welcome everyone to this meeting of the Committee on 
Commerce, Science and Transportation, and specifically to the 
nomination hearing of Dr. Carl Wieman, to be Associate Director 
for Science of the Office of Science and Technology Policy.
    I'd like to welcome our nominee. Today we'll consider his 
nomination. There are some Senators who I know will not be in 
attendance today. So what we'll do is we'll leave the record 
open for a few days for those Senators who would like to submit 
questions.
    The OSTP can have up to four Presidentially-appointed, 
Senate-confirmed associate directors. If confirmed, Dr. Wieman 
will be responsible for coordinating, monitoring, and advising 
on national research priorities and inter-agency programs 
within OSTP's portfolio. According to OSTP Director Dr. 
Holdren, the Associate Director for Science will oversee STEM 
education activities and he will act as an expert adviser to 
the OSTP Director.
    The OSTP is a critical arm of the White House. The advisers 
offer timely technical counsel to the President and his senior 
staff on significant policy matters. Staff members inform good 
policy through sound science and coordinate among science and 
technology-related agencies.
    Finally, the OSTP strives to make sure Americans' financial 
investments make the best possible contribution to our 
collective prosperity, public health, national security, and 
environmental quality.
    Dr. Carl Wieman has extensive teaching experience, has 
received numerous awards, and has conducted extensive research 
in atomic and laser physics. Currently, he serves as Professor 
of Physics and Director of Collaborative Science Education 
Initiatives at both the University of British Columbia and the 
University of Colorado. From 1984 through 2006, he was a 
Distinguished Professor of Physics and Presidential Teaching 
Scholar at the University of Colorado. Notably, he shared the 
Nobel Prize in Physics and 2001 for the creation of the Bose-
Einstein condensation, a new form of matter that I'm sure we'll 
ask about in a few minutes so we can try to understand what 
that means.
    Dr. Wieman was the founding Chair of the National Academy 
of Sciences Board on Science Education. Distinguished 
institutions have conferred on him numerous prestigious awards, 
including the National Science Foundation's Distinguished 
Teacher-Scholar Award in 2001, the Carnegie Foundation's U.S. 
University Professor of the Year Award in 2004, and the 
American Association of Physics Teachers Hoersted Medal in 
2007.
    We look forward to hearing Dr. Wieman's statement and 
examining his credentials for this important post. But first, 
we have a friend and guest of the Committee here to introduce 
Dr. Wieman, and it is Senator Mark Udall from Colorado. Senator 
Udall.

                 STATEMENT OF HON. MARK UDALL, 
                   U.S. SENATOR FROM COLORADO

    Senator Mark Udall. Mr. Chairman, thank you for giving me 
an opportunity to add additional comments to the wonderful 
introduction you just made of Dr. Wieman. I've known Carl for a 
number of years through his work as a Professor of Physics and 
a Presidential Teaching Scholar at the University of Colorado. 
He was born in Oregon, Mr. Chairman, but we're proud to claim 
him as a Coloradan. He is, as you pointed out, the President's 
nominee to be the Associate Director for Science at the White 
House Office of Science and Technology Policy.
    I'm deeply pleased that President Obama recognizes the 
talent and creativity that Carl will bring to our discussions 
on science and in particular STEM education. You mentioned that 
Dr. Wieman won the 2001 Nobel Prize in Physics for producing a 
new state of matter called the Bose-Einstein condensate. I once 
asked him, can you see it, and you should maybe perhaps ask him 
that during his testimony.
    I also know in front of the Committee recently you had two 
Apollo astronauts, including the first human to walk on the 
Moon, Neil Armstrong, who's an iconic figure to all of us. 
While no doubt this is a remarkable achievement, I would note 
that 12 men have walked on the Moon. How many people, however, 
can say they've created a new state of matter?
    Interestingly enough, Carl's Nobel Prize-winning work built 
upon earlier work in laser cooling by the other Nobel Prize 
winner in President Obama's Administration, Secretary of 
Energy, Steven Chu.
    While Dr. Wieman is most famous for winning the Nobel 
Prize, it is his commitment to teaching science to others that 
is Carl's most remarkable quality in my eyes. He's an expert 
not just in teaching science, but in improving how it is 
actually taught. He has devoted his entire professional life to 
STEM education. He's currently the Director of the Carl Wieman 
Science Education Initiative and, as you mentioned, still 
spends part of his time at the University of Colorado leading 
the science education initiative that he founded.
    He was a founding Chair of the National Academy of Sciences 
Board on Science Education and he has won many accolades for 
his teaching.
    Mr. Chairman, if we as the United States are going to 
continue to be a global leader, if we're going to remain 
economically competitive with other nations, we need to teach 
our children math and science and we need to cultivate the next 
generation of scientists and engineers. Currently, it's no 
secret that we're falling behind in that regard.
    Carl knows better than anyone how to improve STEM 
education. That skill and his experience will be an invaluable 
addition to the Obama Administration. I hope and trust and urge 
you to approve his nomination and I encourage you to move 
consideration to the Senate floor in an expeditious manner.
    Thank you again, Mr. Chairman, for the opportunity to 
appear before your committee, and I would note one final fact, 
that it takes two Udalls to handle one Pryor. Thank you for 
giving me the chance to introduce Dr. Wieman today.
    Senator Pryor. Thank you.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Tom Udall. I want to make sure we don't let this 
witness leave without asking him some tough questions.
    Senator Mark Udall. I agree with that.
    [Laughter.]
    Senator Pryor. We've got him under oath now. We'll take 
care of him.
    Good. Thank you, Senator Udall. We appreciate it.
    Senator Udall, did you have an opening statement?
    Senator Tom Udall. No, just go on. I'm here to hear his 
testimony and ask some questions.
    Senator Pryor. Sure, great.
    Dr. Wieman, the floor is yours.

               STATEMENT OF CARL E. WIEMAN, Ph.D.

           ASSOCIATE DIRECTOR-DESIGNATE FOR SCIENCE,

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Wieman. Thank you, Mark, for that generous 
introduction.
    Chairman Pryor, Senator Udall, and distinguished members of 
this committee: It's a great honor to appear before you today. 
I'm grateful for President Obama's confidence in nominating me 
to be Associate Director for Science in the White House Office 
of Science and Technology Policy. OSTP's science portfolio is 
remarkably broad and I appreciate the work of this committee in 
addressing many of those issues and, if confirmed, I look 
forward to working with all of you.
    I grew up deep in the forests of Oregon and I can still 
remember first getting on the school bus and riding many miles 
over unpaved roads to attend first grade. I never imagined that 
was the first step on a journey that would lead me to sitting 
before you today to discuss my nomination.
    My early education was in a tiny school in rural Oregon and 
was greatly supplemented by reading many books from the public 
library in the distant town of Corvallis. For middle and high 
school, my family relocated to Corvallis, the home of Oregon 
State University, to allow me and my siblings to attend a 
better school system. After completing high school, getting on 
an airplane for the first time to go off to college to MIT was 
another big step on my journey to sitting here today before 
you.
    I nearly failed my first physics class at MIT, but I was 
fortunate enough to have the opportunity to work in a physics 
research lab. There I discovered that doing science was far 
more rewarding than studying about science. My work in the lab 
became a consuming passion and gave me a superb education. I 
became fascinated with what one could learn from blasting atoms 
with light from a new type of laser, and I saw this as an 
exciting unexplored territory.
    Exploring that territory led me to graduate work at 
Stanford University and ultimately to a long and successful 
career of physics at the University of Colorado. I feel that my 
strengths as a scientist are recognizing opportunities a little 
earlier and working a bit harder than others, and being able to 
build things that have unique capabilities, usually while held 
together with duct tape and costing a fraction of the price of 
the competition. All these talents may prove useful in 
government service should I be confirmed.
    I've also devoted much of my career to the issue of science 
education. As a young assistant professor, I approached 
teaching, as most firsts do, figuring out the subject to be 
taught very clearly in my own mind and then explaining it to 
the students, expecting they would understand it the way I did. 
However, when I actually measured what my students were 
learning carefully, I discovered that what I thought was clear 
and simple the students found incomprehensible, and I was quite 
puzzled and frustrated by this result.
    That experience actually led me to what's now been nearly a 
20-year effort of mine to understand how people learn science 
and how to teach it more effectively. I have conducted 
extensive research in this area and I have worked with a number 
of groups, particularly the National Academy of Sciences, who 
share my interest in improving science, technology, 
engineering, and mathematics--that's STEM--education.
    This effort has led me to understand both my early failings 
as a teacher, but also how I and others can teach science much 
more effectively. This is very important because our global 
economy is increasingly based around science and technology. To 
maintain U.S. economic competitiveness and leadership in 
innovation, we need to also have leadership in STEM education. 
This will both enhance the scientific and engineering workforce 
and the technical literacy of all our citizens, providing them 
with complex problem-solving skills that they can use in many 
aspects of their jobs and lives.
    President Obama has assembled an exceptional scientific 
team, including Energy Secretary Chu, who has been a friend of 
mine for decades and first talked to me about the importance of 
government service, and OSTP Director John Holdren, and I look 
forward to the opportunity to work with them as well as members 
of this committee and this Congress to develop effective and 
efficient programs that will maintain our leadership in 
scientific research, to measure the results of our investments 
in this area, and to greatly improve STEM education.
    If confirmed, I hope to use my scientific background as 
well as my experience in STEM education to deepen science 
policy dialogue and to enhance progress in STEM education in 
this country.
    I'm pleased to try and answer any questions you may have. 
Thank you.
    [The prepared statement and biographical information of Dr. 
Wieman follows:]

    Prepared Statement of Carl E. Wieman, Ph.D., Associate Director-
    Designate for Science, Office of Science and Technology Policy, 
                   Executive Office of the President
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
members of this Committee, it is a great honor to appear before you 
today. I am grateful for President Obama's confidence in nominating me 
to be the Associate Director for Science in the White House Office of 
Science and Technology Policy (OSTP).
    OSTP's science portfolio is remarkably broad, and I appreciate the 
work of this Committee in addressing many of those issues. If 
confirmed, I look forward to working with all of you.
    I grew up deep in the forests of Oregon. I can still remember first 
getting on the school bus and riding it many miles over unpaved roads 
to attend first grade. I never imagined that was the first step on a 
journey that would lead me to sitting before you today to discuss my 
nomination.
    My early education was in a tiny school in rural Oregon and was 
greatly supplemented by reading many books from the public library in 
the distant town of Corvallis. For middle and high school, my family 
relocated to Corvallis, the home of Oregon State University, to allow 
me and my siblings to attend a better school system. After completing 
high school, getting on an airplane for the first time to go off to 
college at MIT was another big step on my journey to sitting here 
today.
    I nearly failed my first physics course at MIT, but I was fortunate 
enough to have the opportunity to work in a physics research 
laboratory. I discovered that doing science was far more rewarding than 
studying about science. My work in the lab became a consuming passion 
and gave me a superb education. I became fascinated with what one could 
learn from blasting atoms with light from a new type of laser, and I 
saw this as opening up an exciting unexplored territory.
    That exploration led me to graduate work at Stanford University and 
ultimately to a long and successful career as a professor of physics at 
the University of Colorado. I feel that my strengths as a scientist are 
recognizing opportunities earlier and working a bit harder than others, 
and being able to build things that have unique capabilities, usually 
while held together with duct tape and costing a fraction of the price 
of the competition. These talents may all prove useful in government 
service, should I be confirmed.
    I have also devoted much of my career to the issue of science 
education. As a young assistant professor, I approached teaching as 
most do, figuring out the subject to be taught clearly in my own mind 
and then explaining it to the students--expecting that they would then 
understand it as I did. However, when I measured what my students were 
learning I discovered that what I thought was clear and simple, the 
students found incomprehensible. I was puzzled and frustrated by this 
result.
    That experience led to what has now been a nearly 20 year effort of 
mine to understand how people learn science and how to teach it more 
effectively. I have conducted research and worked with a number of 
groups, particularly the National Academy of Sciences, who share my 
interests in improving science, technology, engineering, and 
mathematics (STEM) education. This has led me to understand both my 
early failings as a teacher and how I and others can teach science more 
effectively.
    Our global economy is increasingly based on science and technology. 
To maintain U.S. economic competitiveness and leadership in innovation, 
we need to also have leadership in STEM education. This will both 
enhance the scientific and engineering workforce and the technical 
literacy of all our citizens, providing them with complex problem-
solving skills they can use in many aspects of their jobs and lives.
    President Obama has assembled an exceptional scientific team, 
including Energy Secretary Chu, who has been a friend for decades and 
first talked to me about the importance of government service, and OSTP 
Director, Dr. Holdren. I look forward to the opportunity to work with 
them, as well as the members of this committee and this Congress, to 
develop effective and efficient programs that will maintain our 
leadership in scientific research, to measure results of our 
investments in this area, and to greatly improve STEM education. If 
confirmed, I hope to use my scientific background, as well as my 
experience in STEM education, to deepen the science policy dialogue and 
to enhance progress in STEM education in this country.
    I am pleased to try to answer any questions you may have.
    Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Carl Edwin 
Wieman.
    2. Position to which nominated: Associate Director for Science, 
OSTP.
    3. Date of Nomination: March 24, 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not available to the public.

        Office: Wesbrook Building #300, 6174 University Blvd, Vancouver 
        BC V6T 1Z3, Canada.

    5. Date and Place of Birth: 3/26/51; Corvallis, Oregon.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Sarah L. Gilbert, Associate Director, Carl Wieman Science 
        Education Initiative, University of British Columbia, 
        Vancouver, BC.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S. in Physics, 1973 MIT.

        Ph.D. in Physics, 1977, Stanford University.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated. All positions involve 
scientific research and science education, and hence relate to the 
position for which I am nominated.

        Assistant Research Scientist, Department of Physics, University 
        of Michigan, 1977-1979.

        Assistant Professor of Physics, University of Michigan, 1979-
        84.

        Associate Professor of Physics, University of Colorado, 1984-
        87.

        Fellow, JILA, 1985 to present.

        Professor of Physics, University of Colorado, 1987-1997.

        Chair, JILA, 1993-1995. JILA is highly successful 250+ person 
        interdisciplinary research institute. From 1990 until 2006 I 
        was the Principal Investigator for the JILA NSF center grant, 
        which was by far the largest single grant of the institute and 
        a large fraction of its total funding, and so I was the de 
        facto, although unofficial, head during that period.

        Distinguished Professor, University of Colorado, 1997 to 
        present.

        Director, Science Education Initiative, University of Colorado, 
        12/2005 to present.

        Professor of Physics, University of British Columbia, 2007 to 
        present.

        Director, Carl Wieman Science Education Initiative, University 
        of British Columbia, 2007 to present.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Colorado blue ribbon panel on high school-college alignment 2005.
    I was the founding Chair of the National Academy of Science/
National Research Council, Board on Science Education 1995 to 2009, and 
I continue to serve on that Board as a member. This Board was 
frequently called upon by the Federal Government to provide 
consultation and objective guidance on science education.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

------------------------------------------------------------------------

------------------------------------------------------------------------
National Math Science   Serve on the       Nonprofit         4/09 to
 Initiative              Board of           advancing math    present
Dallas, Texas            Directors.         and science
                                            education
------------------------------------------------------------------------
Research Corporation    Serve on the       Nonprofit         11/08 to
 for Science             Advisory Board.    foundation        present
 Advancement                                supporting
Tucson, AZ                                  science
                                            research and
                                            education
------------------------------------------------------------------------
Center for Excellence   Chair the          Center at a       4/09 to
 in Math and Science     International      university        present
 Education of King       Advisory Board.    devoted to
 Saud University, King                      improving math
 Saud University                            and science
Riyadh, Saudi Arabia                        education in
                                            Saudi Arabia
------------------------------------------------------------------------
American Physical       Chair of the       Physics           6/05 to
 Society                 Editorial          Professional      present
American Center for      Advisory Board     and Educational
 Physics                 of ``Physics       Society
College Park, MD         Review: Physics
                         Education
                         Research'' of
                         the American
                         Physical Society
------------------------------------------------------------------------

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.


------------------------------------------------------------------------
      Member of the following
      professional societies            Location      Date of membership
------------------------------------------------------------------------
American Physical Society           U.S.              35 years ago to
I was the Vice-Chair and then the                      present
 Chair of the Division of Atomic,
 Molecular, and Optical Physics in
 1990. I currently am the Chair
 of the Editorial Advisory Board
 of ``Physics Review: Physics
 Education Research'' of the
 American Physical Society
------------------------------------------------------------------------
National Academy of Education       U.S.              2008 to present
------------------------------------------------------------------------
Canadian Assoc. of Physicists,      Canada            2007 to present
 member
------------------------------------------------------------------------
Optical Society of America          U.S.              35 years ago to
                                                       present
------------------------------------------------------------------------
American Academy of Arts and        U.S.              1998 to present
 Science
------------------------------------------------------------------------
National Academy of Science,        U.S.              1995 to present
 Member
------------------------------------------------------------------------
Founding Chair of the National      U.S.              1995 to present
 Academy of Science/National
 Research Council, Board on
 Science Education. I currently
 serve as a member.
------------------------------------------------------------------------
American Association of Physics     U.S.              10 years ago to
 Teachers                                              present
------------------------------------------------------------------------
European Academy of Sciences        Europe            2004 to present
------------------------------------------------------------------------

    Membership to the National Academy of Education, the National 
Academy of Sciences, the American Academy of Arts and Science, and the 
European Academy of Sciences is by election, based on academic 
credentials only. Membership in the other organizations is 
unrestricted.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    I have held no offices. My political contributions are listed 
below:

------------------------------------------------------------------------

------------------------------------------------------------------------
2/26/2000                 National Committee For Effective         $600
                           Congress (NCEC)
5/30/2000                 NCEC                                     $500
8/26/2000                 NCEC                                     $500
2/17/2001                 NCEC                                     $600
6/4/2001                  NCEC                                     $500
9/8/2001                  NCEC                                     $600
2/9/2002                  NCEC                                     $600
4/20/2002                 Mark Udall for Congress                  $500
5/11/2002                 NCEC                                     $600
8/24/2002                 Strickland for Colorado                  $500
9/7/2002                  Rush Holt for Congress                   $500
9/13/2002                 NCEC                                     $600
10/14/2002                Colorado Democratic Victory Fund         $500
10/14/2002                Strickland for Colorado                  $500
10/15/2002                NCEC                                     $500
2/15/2003                 NCEC                                     $600
4/19/2003                 Mark Udall for Congress                  $500
5/17/2003                 NCEC                                     $600
8/23/2003                 Democratic National Committee            $500
9/20/2003                 NCEC                                     $600
11/22/2003                League of Conservation Voters            $400
12/22/2003                NCEC                                     $600
1/10/2004                 Democratic National Committee            $500
2/7/2004                  NCEC                                     $600
3/13/2004                 Colorado Democratic Victory Fund         $500
4/10/2004                 John Kerry for President                 $500
5/22/2004                 NCEC                                     $600
7/10/2004                 Democratic National Committee            $500
8/7/2004                  Democratic Senate Campaign Fund          $500
8/7/2004                  House Majority Project                   $500
8/8/2004                  NCEC                                     $500
8/21/2004                 Matsunaka for Congress                   $500
9/4/2004                  Dave Thomas for Congress                 $500
9/11/2004                 Colorado Democratic Victory Fund         $500
9/28/2004                 Democratic National Committee          $1,000
10/10/2004                League of Conservation Voters            $600
10/10/2004                Salazar For Senate                     $1,000
10/10/2004                Matsunaka For Congress                   $500
10/10/2004                Colorado Democratic Senate               $500
                           Campaign Fund
10/18/2004                NCEC                                   $1,000
1/8/2005                  Democratic National Committee            $500
2/5/2005                  NCEC                                     $600
3/5/2005                  Colorado Democratic Victory Fund         $500
5/28/2005                 NCEC                                     $600
7/16/2005                 Democratic National Committee            $500
8/27/2005                 NCEC                                     $500
9/17/2005                 League of Conservation Voters            $500
10/30/2005                Mark Udall for Congress                  $500
11/11/2005                Democratic Senatorial Campaign           $500
                           Committee
12/10/2005                Democratic Senate Campaign Fund          $500
1/7/2006                  Democratic National Committee            $500
2/4/2006                  NCEC                                   $1,000
3/4/2006                  Colorado Democratic Victory Fund         $500
3/4/2006                  House Majority Project                   $500
9/23/2006                 League of Conservation Voters          $1,000
9/23/2006                 Dem Sen Cmp Cmm Dirct MA                 $500
9/24/2006                 Bill Ritter For Governor                 $500
9/28/2006                 National Committee For Effective       $1,500
                           Congress
8/8/2007                  NCEC                                   $2,000
8/9/2007                  League of Conservation Voters          $1,000
8/9/2007                  Democratic Senatorial Campaign         $1,000
                           Committee (DSCC)
10/3/2007                 Democratic National Committee          $1,000
12/18/2007                Bill Foster For Congress                 $500
7/10/2008                 Fitz-Gerald For Congress                 $500
8/12/2008                 NCEC                                   $2,000
8/12/2008                 League of Conservation Voters          $1,000
8/12/2008                 DSCC                                   $1,000
8/12/2008                 Democratic National Committee          $1,000
10/8/2008                 Udall For Colorado                       $500
10/8/2008                 NCEC                                   $1,000
10/10/2008                Obama For America                      $1,000
8/5/2009                  NCEC                                   $2,000
8/5/2009                  League of Conservation Voters          $1,000
8/5/2009                  DSCC                                     $500
8/5/2009                  Democratic National Committee          $1,000
------------------------------------------------------------------------

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

    Honors and Awards

    1. Physics Research

        E.O. Lawrence Award in Physics (DOE), 1993

        Davisson-Germer Prize (APS), 1994

        Einstein Medal for Laser Science (Society for Opt. and Quant. 
        Elect.), 1995

        Richtmyer Memorial Lecture Award (Am. Assoc. of Physics 
        Teachers), 1996

        Fritz London Prize in Low Temperature Physics, 1996 (IUPAP)

        Newcomb Cleveland Prize (AAAS), 1996

        King Faisal International Prize for Science, 1997

        Award for Science (Bonfils-Stanton Foundation), 1997

        Lorentz Medal (Royal Netherlands Academy of Arts and Sciences), 
        1998

        R. W. Wood Prize (Optical Society of America), 1999

        Schawlow Prize for Laser Science (American Physical Society), 
        1999

        Benjamin Franklin Medal in Physics (Franklin Institute), 2000

        Nobel Prize in Physics, 2001

                Nobel Prize Citation: ``For the achievement of Bose-
                Einstein condensation in dilute gases of alkali atoms, 
                and for early fundamental studies of the properties of 
                the condensates''

        Vollum Award for Distinguished Accomplishment in Science and 
        Technology, Reed College, 2009

    2. Education

        NSF Director's Award for Distinguished Teaching Scholars, 2001

        Presidential Teaching Scholar, University of Colorado, 2004

        U.S. Professor of the Year, the Carnegie Foundation for the 
        Advancement of Teaching and the Council for Advancement and 
        Support of Education, 2004

        MERLOT Editor's Choice Award for Exemplary Online Resources, 
        2006

        Oersted Medal, American Association of Physics Teachers, 2007

    3. Honorary Memberships and Fellowships

        National Academy of Sciences, elected 1995

        American Academy of Arts & Sciences, elected 1998

        European Academy of Sciences, elected 2004

        National Academy of Education, elected 2008

        Hertz Foundation Fellow, 1973-1977

        Sloan Research Fellowship, 1984

        Guggenheim Fellowship, 1990-1991

        Fellow of the American Physical Society, 1990

        Distinguished Research Lectureship (University of Colorado), 
        1996-97

        Frew Fellowship (Australian Academy of Science), 1998

        Cherwell-Simon Lecturer, (Oxford University), 1999

        Phi Beta Kappa Society Visiting Scholar, 1999-2000

    4. Honorary Degrees

        Doctorate of Science (Honorary), University of Chicago, 1997

        Doctorate of Science (Honorary), Ohio State, 2005

        Doctorate of Science (Honorary), Willamette University, 2007

        Doctorate of Science (Honorary), North Carolina State 
        University, 2008

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    See attached lists of publications (in my C.V.) and speeches.
    The speeches are primarily lectures on various aspects of physics 
and science education. These lists include all the publications and 
speeches I could find through a review of my records.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Testified before the Research and Education Subcommittee of the 
House Committee on Science and Technology on March 7, 2002 and March 
15, 2006. Both times the subject matter was science education.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The Associate Director for Science needs to provide advice that 
will preserve and enhance the scientific research base of the country 
and the scientific work force. My experiences as a highly successful 
research scientist, director of a substantial research lab, and as a 
long time science educator qualify me for that position. An important 
component of this position will also be to implement the 
administration's desire to provide a high quality STEM education for 
all students. In addition to my research career in science, I have 
worked extensively in STEM education research, and I served as the 
Founding Chair and long-time member of the National Academy of Science/
National Research Council, Board on Science Education. In these 
positions I have acquired expertise and knowledge on all aspects of 
STEM education and how it can be improved, and my work in this area has 
been widely recognized.
    19 .What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I will have the general responsibility shared by every Federal 
employee to ensure that government funds are being used in the most 
effective and efficient way possible. This responsibility applies both 
to the internal OSTP work and the broader OSTP mission to ensure that 
agency and department programs are being coordinated and executed 
appropriately. However, if confirmed as an OSTP Associate Director, I 
will have limited direct responsibility for general management and 
accounting controls at OSTP, as those are primarily handled by the 
Operations Manager, Deputy Chief of Staff and Chief of Staff. I will 
assist in implementing those agency controls. I will have direct 
responsibility for my own staff of Policy Analysts, Senior Policy 
Analysts and Assistant Directors should I be confirmed.
    I have experience in managing organizations that are small by 
Federal Government standards, but are comparable to OSTP and relatively 
large relative to the component of OSTP that I will oversee if 
confirmed. For most of the past 20 years I was in charge of a 
multimillion dollar NSF grant that supported the work of approximately 
100 researchers and staff. I was responsible for ensuring that they 
followed proper management and spending and accounting practices, and I 
was responsible for setting overall research goals and making 
programmatic funding decisions. I also served a two-year term as Chair 
of JILA, a joint federal-state research institution with a staff of 
about 250. Since my NSF grant was by far the largest grant supporting 
JILA, even when not Chair I had ongoing de facto management 
responsibilities for the institute as a whole.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe that the biggest challenge facing OSTP is simply the 
scale of its mandate. It is charged to advise the President on all 
aspects of science and technology relevant to the country. In modern 
society that mandate becomes ever larger and more important as science 
and technology both grows in scope and plays an increasingly large role 
in such broad issues as the economy, national security, health, meeting 
growing energy demands, and protection of the environment. Good advice 
on enhancing the vitality and value of S & T in the country needs to 
not only include all aspects of research and development, but also 
education and the technical workforce that are at the heart of a 
vibrant economy and a vibrant creative S & T enterprise. Evaluating and 
coordinating scientific and technological efforts, developing budgets, 
performing studies and analysis, etc. across this vast mandate is a 
great challenge. Such a mandate requires seeking out the expertise and 
wisdom of a large range of scientifically and technically excellent 
people, both inside and outside the government.
    The second challenge I see is finding effective means to impact 
policies and actions in ways that are beneficial to the Nation. The 
OSTP does not have great authority or control of budgets, and so its 
tools for achieving action are limited. Its primary tool is the 
development of persuasive arguments that convince people to move in the 
right direction. That is not easy, particularly when bold rapid action 
is needed.
    The third challenge is to develop and maintain suitable 
relationships across the full span of relevant Federal agencies and 
organizations and nongovernmental entities to ensure first, that we 
hear all the voices in the broad S & T discussion, and second, we are 
present in important policy discussions to provide useful advice. The 
breadth of the OSTP mandate and the limitations of its means to have an 
impact make it both challenging and essential to establish these 
relationships.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    If confirmed, I will take an unpaid leave of absence from my 
position as Professor at the University of British Columbia and an 
unpaid leave of absence from my position as Professor at the University 
of Colorado.
    Upon confirmation, I will resign my position as Director of the 
Carl Wieman Science Education Initiative at the UBC and as Director of 
the Science Education Initiative at University of Colorado. I will 
maintain my UBC pension plan and my TIAA-CREF retirement plan through 
the University of Colorado.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    If confirmed, I will take an unpaid leave of absence from my 
position as Professor at the University of British Columbia and an 
unpaid leave of absence from my position as Professor at the University 
of Colorado.
    Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Department's 
designated agency ethics official and that has been provided to this 
committee. I am not aware of any other potential conflicts of interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    4. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I wrote a few OpEd pieces encouraging support for legislation to 
provide greater support for science research and science education.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I have never been disciplined or cited for a breach of ethics or 
been the subject of such a complaint. However, earlier this year an 
audit at the University of Colorado questioned $2,200 I had authorized 
to be spent in connection with the Science Education Initiative that I 
direct. These funds came from an account that had been endowed by a 
donor to the University, and it was my understanding that the funds 
were for my unrestricted use. According to the Chancellor of the 
University, the audit determined that--while I am generally free to use 
the funds as I see fit--they are still subject to the University's 
general policies because they were dispersed through the University's 
financial system. The audit identified $2,200 that was spent on 
services not reimbursable under University policy (out of a total of 
over $300,000 that I have donated to University projects from this 
account). The Chancellor has assured me that the University has 
determined that I had in no way intentionally misused any funds nor did 
I obtain any personal gain, and has taken no further action. I have 
since taken a training course on the University's fiscal certification 
to avoid any such misunderstandings in the future.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of carl edwin wieman
Address
    Carl Wieman Science Education Initiative (CWSEI)
    University of British Columbia
    300-6174 University Blvd.
    Vancouver, BC V6T 1Z3

Personal
    Born March 26, 1951, Corvallis, Oregon
Degrees
    Bachelor of Science, Massachusetts Institute of Technology, 1973

    Ph.D., Stanford University, 1977
Appointments
    Assistant Research Scientist, Department of Physics, University of 
Michigan, 1977-1979

    Assistant Professor of Physics, University of Michigan, 1979-84

    Associate Professor of Physics, University of Colorado, 1984-87

    Fellow, JILA, 1985 to present

    Professor of Physics, University of Colorado, 1987-1997

    Chair, JILA, 1993-1995

    Distinguished Professor, University of Colorado, 1997 to present

    Director, Science Education Initiative, University of Colorado, 
2006 to present

    Professor of Physics, University of British Columbia, 2007 to 
present

    Director, Carl Wieman Science Education Initiative, University of 
British Columbia, 2007 to present
Current Major Service Positions

    Chair, Editorial Advisory Board, ``Physics Review: Physics 
Education Research'' of the American Physical Society

    Member, National Academy of Science/National Research Council Board 
on Science Education, (Founding Chair, 2004-2009)

    Member, Advisory Board, National Math and Science Initiative

    Member, Presidential Advisory Board, Research Corporation for 
Science Advancement Chair, Advisory Board, Excellence Centre for 
Science and Mathematics Education, King Saud University, Saudi Arabia
Honors and Awards
Physics Research

        E.O. Lawrence Award in Physics (DOE), 1993

        Davisson-Germer Prize (APS) 1994

        Einstein Medal for Laser Science (Society for Opt. and Quant. 
        Elect.), 1995

        Richtmyer Memorial Lecture Award (Am. Assoc. of Physics 
        Teachers), 1996

        Fritz London Prize in Low Temperature Physics, 1996 (IUPAP)

        Newcomb Cleveland Prize (AAAS), 1996

        King Faisal International Prize for Science, 1997

        Award for Science (Bonfils-Stanton Foundation), 1997

        Lorentz Medal (Royal Netherlands Academy of Arts and Sciences), 
        1998

        R. W. Wood Prize (Optical Society of America), 1999

        Schawlow Prize for Laser Science (American Physical Society), 
        1999

        Benjamin Franklin Medal in Physics (Franklin Institute), 2000

        Nobel Prize in Physics, 2001

                Nobel Prize Citation: ``For the achievement of Bose-
                Einstein condensation in dilute gases of alkali atoms, 
                and for early fundamental studies of the properties of 
                the condensates''

        Vollum Award for Distinguished Accomplishment in Science and 
        Technology, Reed College, 2009

Education

        NSF Director's Award for Distinguished Teaching Scholars, 2001

        Presidential Teaching Scholar, University of Colorado, 2004

        U.S. Professor of the Year, the Carnegie Foundation for the 
        Advancement of Teaching and the Council for Advancement and 
        Support of Education, 2004

        MERLOT Editor's Choice Award for Exemplary Online Resources, 
        2006

        Oersted Medal, American Association of Physics Teachers, 2007

Honorary Memberships and Fellowships

        National Academy of Sciences, elected 1995

        American Academy of Arts & Sciences, elected 1998

        European Academy of Sciences, elected 2004

        National Academy of Education, elected 2008

        Hertz Foundation Fellow, 1973-1977

        Sloan Research Fellowship, 1984

        Guggenheim Fellowship, 1990-1991

        Fellow of the American Physical Society, 1990

        Distinguished Research Lectureship, 1996-97 (University of 
        Colorado)

        Frew Fellowship (Australian Academy of Science), 1998

        Cherwell-Simon Lecturer, (Oxford University), 1999

        Phi Beta Kappa Society Visiting Scholar, 1999-2000

Honorary Degrees

        Doctorate of Science (Honorary), University of Chicago, 1997

        Doctorate of Science (Honorary), Ohio State, 2005

        Doctorate of Science (Honorary), Willamette University, 2007

        Doctorate of Science (Honorary), North Carolina State 
        University, 2008

Professional Associations

        Optical Society of America

        American Physical Society

        American Association of Physics Teachers

        Canadian Association of Physicists

        National Academy of Science

        National Academy of Education

Patents

        S. Chu, W. Swann and C. Wieman, ``Frequency standard using an 
        atomic fountain of optically trapped atoms,'' Patent 
        #5,338,930, August 16, 1994.

        M. S. E. Stephens, P. A. Roos, C. E. Wieman and E. A. Cornell, 
        ``Laser sensor using optical feedback-induced frequency 
        modulation,'' Patent #5,808,743, September 15, 1998.

        C. E. Wieman, Z.-T. Lu, K. L. Corwin and C. Hand, ``Stable 
        Wavelength Diode Laser using the Zeeman Shift in an Atomic 
        Vapor,'' Patent #6,009,111, December 28, 1999.
Publications
    1. T. W. Hansch, S. A. Lee, R. Wallenstein and C. Wieman, 
``Doppler-free two-photon spectroscopy of hydrogen 1s-2s,'' Phys. Rev. 
Lett. 34, 307 (1975).
    2. B. Brown, G. Henry, R. Keopcke and C. Wieman, ``High-resolution 
measurement of the response of an isolated bubble domain to pulsed 
magnetic fields,'' IEEE Trans. Magnetics 11, 1391 (1975).
    3. C. E. Wieman and T. W. Hansch, ``Doppler-free laser polarization 
spectroscopy,'' Phys. Rev. Lett. 36, 1170 (1976).
    4. R. Feinberg, T. Hansch, A. Schawlow, R. Teets and C. Wieman, 
``Laser polarization spectroscopy of atoms and molecules,'' Opt. Comm. 
18, 227 (1976).
    5. Wieman and T. Hansch, ``Precision measurement of the ground 
state Lamb shift in hydrogen and deuterium,'' in Laser Spectroscopy 
III, Proceedings of the Third International Conference, Jackson Lake 
Lodge, Wyoming, USA (J. L. Hall and J. L. Carlsten, Eds., Springer-
Verlag), 39-43 (1977).
    6. R. Teets and C. Wieman, ``Polarization spectroscopy,'' Focus on 
Science (Coherent Radiation) 1, 1 (1977).
    7. C. E. Wieman, ``Search for parity violation in atomic 
hydrogen,'' in Proceedings of the 1979 Cargese Workshop on Neutral 
Current Interactions in Atoms (W. L. Williams, Ed., 1980).
    8. C. E. Wieman and T. W. Hansch, ``Precision measurement on the 1s 
Lamb shift and of the 1s-2s isotope shift of H and D,'' Phys. Rev. A 
22, 192 (1980).
    9. D. Shiner and C. E. Wieman, ``Current work on two photon 
excitation in a hydrogen beam for measurement of the Rydberg constant 
and me/mp,'' in Precision Measurement and Fundamental Constants II (B. 
N. Taylor and W. D. Phillips, Eds., Natl. Bur. Stand. Spec. Publ. 617, 
1984).
    10. S. L. Gilbert and C. E. Wieman, ``An easily constructed high 
vacuum valve,'' Rev. Sci. Instr. 53, 1627 (1982).
    11. C. E. Wieman and S. L. Gilbert, ``Laser frequency stabilization 
using mode interference from a reflecting reference interferometer,'' 
Opt. Lett. 7, 480 (1982).
    12. S. L. Gilbert, R. Watts and C. E. Wieman, ``Hyperfine structure 
measurement of the 7s state of cesium,'' Phys. Rev. A 27, 581 (1983).
    13. R. N. Watts, S. L. Gilbert and C. E. Wieman, ``Precision 
measurement of the Stark shift of the 6s-7s transition in atomic 
cesium,'' Phys. Rev. A 27, 2769 (1983).
    14. C. E. Wieman, ``Lineshapes in nonlinear spectroscopy,'' in 
Quantum Metrology and Fundamental Constants (G. Cutler and A. Lucas, 
Eds., Plenum Press, 1983).
    15. C. E. Wieman, ``Laser spectroscopy of hydrogen and the 
measurement of the fundamental constants,'' in Quantum Metrology and 
Fundamental Constants (G. Cutler and A. Lucas, Eds., Plenum Press, 
1983).
    16. C. E. Wieman, ``Polarization spectroscopy,'' in Laser Based 
Ultrasensitive Spectroscopy (R. A. Keller, Ed., SPIE Press, 1983).
    17. S. L. Gilbert, R. N. Watts and C. E. Wieman, ``Measurement of 
the 6s<r-arrow>7s M1 transition in cesium with the use of crossed 
electric and magnetic fields,'' Phys. Rev. A 29, 137 (1984).
    18. S. L. Gilbert, M. C. Noecker, and C. E. Wieman, ``Absolute 
measurement of the photoionization cross section of the excited 7s 
state of cesium,'' Phys. Rev. A 29, 3150 (1984).
    19. R. N. Watts and C. E. Wieman, ``Stopping atoms with diode 
lasers,'' in Laser Spectroscopy VII, Proceedings of the Seventh 
International Conference, Hawaii, June 24-28, 1985 (T. W. Hansch and Y. 
R. Shen, Eds., Springer-Verlag, 1985), pp. 20-21.
    20. C. E. Wieman, S. Gilbert, R. Watts and M. C. Noecker, ``Atomic 
parity violation using the crossed beam interference technique,'' in 
Laser Spectroscopy VII, Proceedings of the Seventh International 
Conference, Hawaii, June 24-28, 1985 (T. W. Hansch and Y. R. Shen, 
Eds., Springer-Verlag, 1985), pp. 37-40.
    21. S. L. Gilbert, M. C. Noecker, R. N. Watts and C. E. Wieman, 
``Measurement of parity nonconservation in atomic cesium,'' Phys. Rev. 
Lett. 55, 2680 (1985).
    22. R. N. Watts and C. E. Wieman, ``The production of a highly 
polarized atomic cesium beam,'' Opt. Comm. 57, 45 (1986).
    23. R. N. Watts and C. E. Wieman, ``Manipulating atomic velocities 
using diode lasers,'' Opt. Lett. 11, 291 (1986).
    24. S. L. Gilbert and C. E. Wieman, ``Atomic-beam measurement of 
parity nonconservation in cesium,'' Phys. Rev. A 34, 792 (1986).
    25. D. E. Pritchard, E. L. Raab, V. Bagnato, R. N. Watts and C. E. 
Wieman, ``Light traps using spontaneous forces,'' Phys. Rev. Lett. 57, 
310 (1986).
    26. S. L. Gilbert, B. P. Masterson, M. C. Noecker, and C. E. 
Wieman, ``Precision measurement of the off-diagonal hyperfine 
interaction,'' Phys. Rev. A 34, 3509 (1986).
    27. C. E. Wieman, S. L. Gilbert and M. C. Noecker, ``A new 
measurement of parity nonconservation in atomic cesium,'' in Atomic 
Physics 10, (H. Narumi and I. Shimamura, Eds., North Holland, 1987), 
pp. 65-76.
    28. D. W. Sesko and C. E. Wieman, ``A high frequency Fabry-Perot 
phase modulator,'' Appl. Opt. 26, 1663 (1987).
    29. C. E. Wieman, M. C. Noecker, B. P. Masterson and J. Cooper, 
``Asymmetric line shapes for weak transitions in strong standing wave 
fields,'' Phys. Rev. Lett. 58, 1738 (1987).
    30. C. E. Wieman, ``Parity nonconservation in atoms,'' (Physics 
News of 1986) Physics Today 40, S. 24 (1987).
    31. C. E. Tanner, B. P. Masterson and C. E. Wieman, ``Atomic beam 
collimation using a laser diode with a self-locking power-buildup 
cavity,'' Opt. Lett. 13, 357 (1988).
    32. D. Sesko, C. G. Fan and C. E. Wieman, ``Production of a cold 
atomic vapor using diode-laser cooling,'' J. Opt. Soc. Am. B 5, 1225 
(1988).
    33. C. E. Tanner and C. E. Wieman, ``Precision measurement of the 
Stark shift in the 6S<INF>1/2</INF><r-arrow>6P<INF>3/2</INF> cesium 
transition using a frequency-stabilized laser diode,'' Phys. Rev. A 38, 
162 (1988).
    34. C. E. Wieman, ``Parity (Quantum Mechanics),'' in 1989 McGraw-
Hill Encyclopedia of Science and Technology (McGraw-Hill, 1988), 274.
    35. C. E. Tanner and C. E. Wieman, ``Precision measurement of the 
hyperfine structure of the <SUP>133</SUP>Cs 6P<INF>3/2</INF>, state,'' 
Phys. Rev. A 38, 1616 (1988).
    36. M. C. Noecker, B. P. Masterson and C. E. Wieman, ``Precision 
measurement of parity nonconservation in atomic cesium: A low energy 
test of the electroweak theory,'' Phys. Rev. Lett. 61, 310 (1988).
    37. C. E. Wieman, ``Ion crystals,'' (Physics News of 1988), Physics 
Today 42, S. 13 (1989).
    38. D. W. Sesko and C. E. Wieman, ``Observation of the cesium clock 
transition in laser cooled atoms,'' Opt. Lett. 14, 269 (1989).
    39. G. J. Dixon, C. E. Tanner and C. E. Wieman, ``432-nm source 
based on efficient second-harmonic generation of GaA1As diode-laser 
radiation in self-locking external resonant cavity,'' Opt. Lett. 14, 
pp. 731-733 (1989).
    40. D. Sesko, T. Walker, C. Monroe, A. Gallagher and C. Wieman, 
``Collisional losses from a light force atom trap,'' Phys. Rev. Lett. 
63, pp. 961-964 (1989).
    41. M. C. Noecker, B. P. Masterson, C. E. Wieman and S. L. Gilbert, 
``An improved measurement of parity nonconservation in atomic cesium: A 
low energy test of the electroweak theory and first observation of the 
nuclear anapole moment,'' in Atomic Physics 11, Paris, July 1988 (S. 
Haroche, J. Gay and G. Grynberg, Eds., World Scientific, Singapore, 
1989), pp. 619-621.
    42. C. Wieman, ``Parity nonconservation in atomic physics,'' in 
From Actions to Answers, Proceedings of the 1989 Theoretical Advanced 
Study Institute in Particle Physics (T. Degrand and D. Toussaint, Eds., 
World Scientific, 1990), pp. 645-654.
    43. C. Wieman and S. Chu, Eds., Special Issue on Laser Trapping and 
Cooling, J. Opt. Soc. Am. B 6, 11 (1989).
    44. T. Walker, D. Sesko and C. Wieman, ``Collective behavior of 
optically trapped neutral atoms,'' Phys. Rev. Lett. 64, pp. 408-411 
(1990).
    45. T. G. Walker, D. W. Sesko, C. Monroe and C. Wieman, 
``Collisional loss mechanisms in light-force atom traps,'' in 
Proceedings, Sixteenth International Conference on the Physics of 
Electronic and Atomic Collisions, (A. Dalgarno et al., Eds., Am. 
Instit. Phys., New York, 1990), pp. 593-598.
    46. C. Wieman and L. Hollberg, ``Using diode lasers for atomic 
physics,'' (invited review) Rev. Sci. Instrum. 62, pp. 1-20 (1991).
    47. D. Sesko, T. Walker and C. Wieman, ``Behavior of neutral atoms 
in a spontaneous force trap,'' J. Opt. Soc. Am. B 8, pp. 946-958 
(1991).
    48. C. Monroe, W. Swann, H. Robinson and C. Wieman ``Very cold 
trapped atoms in a vapor cell,'' Phys. Rev. Lett. 65, pp. 1571-1574 
(1990).
    49. C. Monroe, H. Robinson and C. Wieman, ``Observation of the 
cesium clock transition using laser-cooled atoms in a vapor cell,'' 
Opt. Lett. 16, pp. 50-52 (1991).
    50. C. Wieman, T. Walker, D. Sesko and C. Monroe, ``Curious 
behavior of optically trapped atoms,'' in Atomic Physics 12, AIP Conf 
Proc. 233 (J. C. Zorn and R. R. Lewis, Eds., Am. Instit. Phys., New 
York, 1991), pp. 58-73.
    51. H. Patrick and C. E. Wieman, ``Frequency stabilization of a 
diode laser using simultaneous optical feedback from a diffraction 
grating and a narrowband Fabry-Perot cavity,'' Rev. Sci. Instrum. 62, 
pp. 2593-2595 (1991).
    52. E. A. Cornell, C. Monroe and C. E. Wieman, ``A multiply-loaded, 
ac magnetic trap for neutral atoms,'' Phys Rev. Lett. 67, pp. 2439-2442 
(1991).
    53. C. E. Wieman, C. Monroe and E. Cornell, ``Fundamental Physics 
with optically trapped atoms,'' in Laser Spectroscopy X, (M. Ducloy, 
Ed., World Scientific, 1992), pp. 77-82.
    54. K. Lindquist, M. Stephens and C. Wieman, ``Experimental and 
theoretical study of the vapor-cell Zeeman optical trap,'' Phys. Rev. A 
46, pp. 4082-4090 (1992).
    55. C. Sackett, E. Cornell, C. Monroe and C. Wieman, ``A new 
magnetic suspension system for atoms and bar magnets,'' Am. J. Phys. 
61, pp. 304-309 (1993).
    56. K. B. MacAdam, A. Steinbach and C. Wieman, ``A narrow band 
tunable diode laser system with grating feedback, and a saturated 
absorption spectrometer for Cs and Rb,'' Am. J. Phys. 60, pp. 1098-1111 
(1992).
    57. C. Monroe, E. Cornell and C. Wieman, ``The low (temperature) 
road toward Bose-Einstein condensation in optically and magnetically 
trapped cesium atoms,'' in Proceedings of the International School of 
Physics `Enrico Fermi', Course CXVIII, Laser Manipulation of Atoms and 
Ions, (E. Arimondo, W. D. Phillips, and F. Strumia, Eds., North 
Holland, 1992), pp. 361-377.
    58. B. P. Masterson, C. Tanner, H. Patrick and C. Wieman, ``A high 
brightness, high purity spin polarized cesium beam,'' Phys. Rev. A 47, 
pp. 2139-2145 (1993).
    59. C. E. Wieman, ``Atomic parity nonconservation,'' Physics in 
Collision 12 (J. Cumalat, Ed., Editions Frontiers, Gif-sur-Yvette, 
France, 1993), pp.47-63.
    60. C. R. Monroe, E. A. Cornell, C. A. Sackett, C. J. Myatt and C. 
E. Wieman, ``Measurement of Cs-Cs elastic scattering at T=30 mK'' Phys. 
Rev. Lett. 70, pp. 414-417 (1993).
    61. C. J. Myatt, N. R. Newbury and C. E. Wieman, ``Simplified atom 
trap using direct microwave modulation of a diode laser,'' Optics 
Letts. 47, pp. 649-651 (1993).
    62. S. L. Gilbert and C. E. Wieman, ``Laser cooling and trapping 
for the masses,'' Optics & Photonics News 4, pp. 8-10 (1993).
    63. B. P. Masterson and C. E. Wieman, ``Atomic parity 
nonconservation experiments,'' in Precision Tests of the Standard 
Electroweak Model (P. Langacker, Ed., World Scientific, Singapore, 
1995), pp. 545-76.
    64. C. E. Wieman, ``Parity nonconservation in atoms; past work and 
trapped atom future,'' in Proc., Workshop on Traps for Antimatter and 
Radioactive Nuclei, J. Hyperfine Int. 81, pp. 27-34 (1993).
    65. M. Stephens, K. Lindquist and C. Wieman, ``Optimizing the 
capture process in optical traps,'' J. Hyperfine Int. 81, pp. 203-215 
(1993).
    66. C. E. Wieman, S. Gilbert, C. Noecker, P. Masterson, C. Tanner, 
C. Wood, C. Cho and M. Stephens, ``Measurement of parity 
nonconservation in atoms,'' in Proceedings of the 1992 `Enrico Fermi' 
Summer School, Varenna, Italy, Course CXX Frontiers of Laser 
Spectroscopy, (T. W. Hansch and M. Inguscio, Eds., North Holland, 
1994), pp. 240-285.
    67. M. Stephens and C. E. Wieman, ``High collection efficiency in a 
laser trap,'' Phy. Rev. Lett. 72, pp. 3787-3790 (1994).
    68. M. Stephens, R. Rhodes and C. Wieman, ``A study of wall 
coatings for vapor-cell laser traps,'' J. App. Phys. 76, pp. 3479-3488 
(1994).
    69. L. Young, W. Hill III, S. Sibener, S. D. Price, C. E. Tanner, 
C. E. Wieman and S. R. Leone, ``Precision lifetime measurements of Cs 
6p<SUP>2</SUP>P<INF>1/2</INF> and 6p<SUP>2</SUP>P<INF>3/2</INF> by 
single photon counting,'' Phys. Rev. A 50, pp. 2174-2181 (1994).
    70. D, J. Wineland, C. E. Wieman and S. J. Smith, ``AIP Conference 
Proceedings 323,'' Atomic Physics 14, Fourteenth International 
Conference on Atomic Physics, Boulder, CO (1994).
    71. C. Wieman, G. Flowers and S. Gilbert, ``Inexpensive laser 
cooling and trapping experiment for undergraduate laboratories,'' A. J. 
Phys. 63, pp. 317-330 (1995).
    72. N. R. Newbury, C. J. Myatt, E. A. Cornell and C. E. Wieman, 
``Gravitational sisyphus cooling of 87Rb in a magnetic trap,'' Phys. 
Rev. Lett. 74, pp. 2196-2199 (1995).
    73. N. R. Newbury, C. J. Myatt and C. E. Wieman, ``S-Wave elastic 
collisions between cold ground state <SUP>87</SUP>Rb atoms,'' Phy. Rev. 
A. 51, R2680 (1995).
    74. M. Stephens, C. Wieman, K. Corwin, Z. T. Lu, H. Gould and T. 
Dinneen, ``Optimizing capture efficiency in a magneto-optical trap,'' 
Advanced Optical Methods for Ultrasensitive Detection (Bryan L Fearey, 
Ed., SPIE 2385) (1995).
    75. D. Cho, C.S. Wood, S.C. Bennett, B.P. Masterson, C. E. Tanner 
and C. E. Wieman ``Particle astrophysics, atomic physics and 
gravitation,'' in Proceedings 14th Moriond Workshop, J. Tran Thanh Van, 
(G. Fontaine and E. Hinds, Eds., 1995), pp. 325-329.
    76. M. J. Renn, O. Vdovin, D. Z. Anderson, C. E. Wieman and E. A. 
Cornell, ``Laser-guided atoms in hollow-core optical fibers,'' Phys. 
Rev. Letts. 75, pp. 3253-3256 (1995).
    77. M. H. Anderson, J. R. Ensher, M. R. Matthews, C. E. Wieman and 
E. A. Cornell, ``Observation of Bose-Einstein condensation in a dilute 
atomic vapor,'' Science 269, pp. 198-201 (1995).
    78. C. J. Myatt, N. R. Newbury, R. W. Ghrist, S. Loutzenhiser and 
C. E. Wieman, ``Multiply loaded magneto-optical trap,'' Optics Letter 
21, pp. 290-292 (1996).
    79. N. R. Newbury and C. E. Wieman, ``Resource Letter TNA-1: 
Trapping of neutral atoms,'' Am. J. Phys. 64, pp. 18-20 (1996).
    80. M. J. Renn, E. A. Donley, E. A. Cornell, C. E. Wieman, and D. 
Z. Anderson, ``Evanescent wave guiding of atoms in hollow optical 
fibers,'' Phys. Rev. A. 53, pp. R648-R651 (1996).
    81. D. S. Jin, J. R. Ensher, M. R. Matthews, C. E. Wieman and E. A. 
Cornell, ``Collective excitations of a Bose-Einstein condensate in a 
dilute gas,'' Phy. Rev. Letts. 77, pp. 420-423 (1996).
    82. M.H. Anderson, J. R. Ensher, M. R. Matthews, C. E. Wieman, E. 
A. Cornell, ``Evidence for Bose-Einstein condensation in a dilute 
atomic vapor,'' Laser Spectroscopy (M. Inguscio, M. Allegrini and A. 
Sasso, Eds., Word Scientific, Singapore), pp. 3-6 (1996).
    83. Z. T. Lu, K. L. Corwin, M. J. Renn, M. H. Anderson, E. A. 
Cornell and C. E. Wieman, ``A low-velocity intense source of atoms from 
a magneto-optical trap,'' Phys. Rev. Lett. 77, pp. 3331-3334 (1996).
    84. P. A. Roos, M. Stephens and C. E. Wieman, ``Laser vibrometer 
using optical feedback-induced frequency modulation for a single mode 
laser diode,'' Applied Optics 35, pp. 6754-6761 (1996).
    85. J. R. Ensher, D. S. Jin, M. R. Matthews, C. E. Wieman and E. A. 
Cornell, ``Bose-Einstein Condensation in a Dilute Gas: Measurement of 
Energy and Ground-State Occupation,'' Phys. Rev. Lett. 77, pp. 4984-
4987 (1996).
    86. C. E. Wieman, ``The Richtmyer Memorial Lecture: Bose-Einstein 
condensation in an ultracold gas,'' Am. J. Phys. 64, pp. 847-855 
(1996).
    87. D. S. Jin, J. R. Ensher, M. R. Matthews, C. E. Wieman, and E. 
A. Cornell, ``Quantitative Studies of Bose-Einstein Condensation in a 
Dilute Atomic Vapor,'' Czech Journal of Physics, Proceedings of the 
21st Conference on Low Temperature Physics 46--Suppl., Part S6, pp. 
3070-3076 (1996).
    88. C. E. Wieman, ``The Creation of Bose-Einstein Condensation in a 
Cold Vapor--Fritz London Award Lecture,'' Czech Journal of Physics, 
Proceedings of the 21st Conference on Low Temperature Physics 46--
Suppl., Part S6, pp. 2923-2927 (1996).
    89. E. A. Cornell and C. E. Wieman, ``Bose-Einstein Condensation,'' 
Physics News in 1995, (P. F. Schewe, Ed., American Institute of 
Physics, 1996), pp. 10-12.
    90. S. L. Gilbert and C. Wieman, ``Laser cooling,'' Macmillian 
Encyclopedia of Physics, J. Rigden, editor (Simon & Schuster Macmillan, 
New York, NY, 1996), pp. 836-838.
    91. C. J. Myatt, E. A. Burt, R. W Christ, E. A. Cornell, and C. E. 
Wieman, ``Production of Two Overlapping Bose-Einstein Condensates by 
Sympathetic Cooling,'' Phys. Rev. Lett. 78, pp. 587-589 (1997).
    92. D. S. Jin, M. R. Matthews, J. R. Ensher, C. E. Wieman and E. A. 
Cornell, ``Temperature-Dependent Damping and Frequency Shifts in 
Collective Excitations of a Dilute Bose-Einstein Condensate,'' Phys. 
Rev. Lett. 78, pp. 764-767 (1997).
    93. D. Cho, C. S. Wood, S. C. Bennett, J. L. Roberts, and C. E. 
Wieman, ``Precision Measurement of the Ratio of Scalar to Tensor 
Transition Polarizabilities for the Cesium 6S-7S Transition,'' Phys. 
Rev. A, 55, pp. 1007-1011 (1997).
    94. C. S. Wood, S. C. Bennett, D. Cho, B. P. Masterson, J. L. 
Roberts, C. Tanner and C. E. Wieman, ``Measurement of parity 
nonconservation and an anapole moment in cesium,'' Science 275, pp. 
1759-1763 (1997).
    95. Z.-T. Lu, K. L. Corwin, K. R. Vogel and C. E. Wieman, 
``Efficient Collection of <SUP>221</SUP>Fr into a Vapor Cell Magneto-
optical Trap,'' Phys. Rev. Lett. 79, pp. 994-998 (1997).
    96. E. A. Burt, R. W. Ghrist, C. J. Myatt, M. J. Holland, E. A. 
Cornell and C. E. Wieman, ``Coherence, correlations, and collisions: 
What one learns about Bose-Einstein condensates from their decay,'' 
Phys. Rev. Lett. 79, pp. 337-340 (1997).
    97. C. E. Wieman, ``The creation and study of Bose-Einstein 
condensation in a dilute atomic vapor,'' Phil. Trans. R. Soc. Lond. A 
355, pp. 2247-2257 (1997), Proceedings of the Royal Society Discussion 
Meeting Highlights in Quantum Optics.
    98. C. E. Wieman, ``Bose-Einstein condensation in an ultracold 
gas,'' Inter. J. Mod. Phys. B 11, No. 28, pp. 3281-3296 (1997), Proc. 
of Inauguration Conference of Asia Pacific Center for Theoretical 
Physics, (World Scientific Publishing Co.).
    99. C. E. Wieman, ``Observation and study of Bose-Einstein 
Condensation in a cold alkali vapor,'' J. Korean Phys. Soc. 32, No. 3, 
pp. 394-397 (March 1998), Proceedings of the 3rd Asia International 
Seminar on Atomic & Molecular Physics.
    100. J. Williams, R. Walser, C. Wieman, J. Cooper and M. Holland, 
``Achieving Steady State Bose-Einstein Condensation,'' Phys. Rev. A 57, 
pp. 2030-2036 (1998).
    101. C. E. Wieman and E. A. Cornell, ``The Bose-Einstein 
Condensate,'' Scientific American 278, No. 3, pp. 40-45 (1998).
    102. D. S. Hall, J. R. Ensher, D. S. Jin, M. R. Matthews, C. E. 
Wieman and E. A. Cornell, ``Recent experiments with Bose-condensed 
gases at JILA,'' Proceedings of SPIE 3270, pp. 98-106 (1998).
    103. K. L. Corwin. Z.-T. Lu, C. Hand, R. J. Epstein and C. E. 
Wieman, ``Frequency-stabilized diode laser using the Zeeman shift in an 
atomic vapor,'' App. Optics 37, No. 15, pp. 3295-3298 (1998).
    104. D. S. Hall, M. R. Matthews, J. R. Ensher, C. E. Wieman and E. 
A. Cornell, ``The dynamics of component separation in a binary mixture 
of Bose-Einstein condensates,'' Phys. Rev. Lett. 81, pp. 1539-1542 
(1998).
    105. D. S. Hall, M. R. Matthews, C. E. Wieman and E. A. Cornell, 
``Measurements of relative phase in two-component mixtures of Bose-
Einstein condensates,'' Phys. Rev. Lett. 81, pp. 1543-1546 (1998).
    106. Carl E. Wieman, Photonic, Electronic and Atomic Collisions, 
``Bose-Einstein Condensation and PeV Collisions,'' pp. 9-21 (1998), 
Proc. of the XX International Conference on the Physics of Electronic 
and Atomic Collisions (ICPEAC), Vienna, Austria, (World Scientific 
Publishing Co.).
    107. M. R. Matthews, D. S. Hall, D. S. Jin, J. R. Ensher. C. E. 
Wieman and E. A. Cornell, ``Dynamical Response of a Bose-Einstein 
condensate to a discontinuous Change in Internal State,'' Phys. Rev. 
Lett. 81, pp. 243-247 (1998).
    108. E. A. Cornell, D. S. Hall, M. R. Matthews and C. E. Wieman, 
``Having it both ways: Distinguishable yet phase-coherent mixtures of 
Bose-Einstein condensates,'' J. Low Temp. Phys. 113, Nos. 3/4, pp. 151-
165 (1998).
    109. S. C. Bennett, J. L. Roberts and C. E. Wieman, ``Measurement 
of the dc Stark shift of the 6S <r-arrow> 7S transition in atomic 
cesium,'' Phys. Rev. A 59, pp. R16-R18 (1999).
    110. S. C. Bennett and C. E. Wieman, ``Measurement of the 6S 
<r-arrow> 7S transition polarizability in atomic cesium and an improved 
test of the standard model,'' Phys. Rev. Lett. 82, p. 2484 (1999).
    111. J. L. Roberts, N. R. Claussen, James P. Burke, Jr., Chris H. 
Greene, E. A. Cornell and C. E. Wieman, ``Resonant magnetic field 
control of elastic scattering in cold <SUP>85</SUP>Rb,'' Phys. Rev. 
Lett. 81, pp. 5109-5112 (1998).
    112. N. R. Newbury and C. Wieman, Eds., Trapping of Neutral Atoms 
(American Association of Physics Teachers, College Park, MD, 1998), 129 
pages.
    113. C. S. Wood, S. C. Bennett, J. L. Roberts, D. Cho and C. E. 
Wieman, ``Precision measurement of parity nonconservation in cesium,'' 
Can. J. Phys. 77, 7 (1999).
    114. Carl E. Wieman, David E. Pritchard and David J. Wineland, 
``Atom cooling, trapping and quantum manipulation,'' Centennial 
Edition, Rev. Mod. Phys. 71, 2, pp. S253-S262 (1999).
    115. C. E. Wieman, E. A. Cornell, D. Jin, J. Ensher, M. Matthews, 
C. Myatt, E. Burt and R. Ghrist, ``The Creation and Study of Bose-
Einstein Condensation in a Cold Alkali Vapor,'' in Proceedings, 
Fifteenth International Conference on Atomic Physics: Zeeman-Effect 
Centenary, (J. Walraven, Ed.) (1996).
    116. C. E. Wieman and E. A. Cornell, ``Bose-Einstein condensation 
in a cold vapor,'' in the 1997 King Faisal International Prize, King 
Faisal Award Proceedings (King Faisal Foundation, Riyadh, Saudi Arabia, 
1998), pp. 86-93.
    117. D. S. Hall, M. R. Matthews, C. E. Wieman and E. A. Cornell, 
``Measurements of relative phase and quantum beat note between Bose-
Einstein condensates,'' in Quantum Coherence and Decoherence, ISQM-
Tokyo '98 (Y. A. Ono and K. Fujikawa, Eds., Elsevier, 1999), pp. 123-
128.
    118. Wieman, Carl E., ``Recent improvements in measurement of 
parity violations in atoms,'' 1, in Atomic Physics 15, ed. W. Bayliss 
and G. Drake, AIP press, NY (1999).
    119. E. A. Cornell, J. R. Ensher, and C. E. Wieman, ``Experiments 
in dilute atomic Bose-Einstein condensation,'' (in M. Inguscio, S. 
Stringari, and C. E. Wieman, Eds., Bose-Einstein Condensation in Atomic 
Gases, Proceedings of the International School of Physics ``Enrico 
Fermi'' Course CXL, Italian Physical Society, October 1999.
    120. C. E. Wieman and E. A. Cornell, ``Seventy years later: the 
creation of a Bose-Einstein condensate in an ultracold gas,'' Lorentz 
Prize talk (1999). Proceedings of the Royal Netherlands Academy of Arts 
and Sciences.
    121. K. L. Corwin, S. J. M. Kuppens, D. Cho, and C. E. Wieman, 
``Spin-polarized atoms in a circularly polarized optical dipole trap,'' 
Phys. Rev. Lett, 83, pp. 1311-1314 (1999).
    122. M. R. Matthews, B. P. Anderson, P. C. Haljan, D. S. Hall, M. 
J. Holland, J. E. Williams, C. E. Wieman and E. A. Cornell, ``Watching 
a superfluid untwist itself: Recurrence of Rabi oscillations in a Bose-
Einstein condensate,'' Phys. Rev. Lett. 83, p. 3358 (1999).
    123. M. R. Matthews, B. P. Anderson, P. C. Haljan, D. S. Hall, C. 
E. Wieman and E. A. Cornell, ``Vortices in a Bose-Einstein 
Condensate,'' Phys. Rev. Lett. 83, pp. 2498-2501 (1999).
    124. D. Cho, S. C. Bennett and C. E. Wieman, ``Transverse cooling 
of a cesium atomic beam,'' J. Korean Phys. Soc. 35, 3, pp. 244-247 
(1999).
    125. M. Inguscio, S. Stringari, and C. E. Wieman, Eds., Bose-
Einstein Condensation in Atomic Gases, Proceedings of the International 
School of Physics ``Enrico Fermi'' Course CXL, Italian Physical Society 
(1999).
    126. C. E. Wieman, ``Precision measurement of parity 
nonconservation in cesium and its implications for nuclear and 
elementary particle physics,'' in Laser Spectroscopy XIV International 
Conference (R. Blatt et al., Eds, World Scientific, pp. 33-40) (1999).
    127. S. L. Cornish, N. R. Claussen, J. L. Roberts, E. A. Cornell 
and C. E. Wieman, ``Stable <SUP>85</SUP>Rb Bose-Einstein condensates 
with widely tunable interactions,'' Physical Rev. Lett. 85, pp. 1795-
1798 (2000).
    128. S. Kuppens, K. Corwin, K. Miller, T. Chupp, and C. Wieman, 
``Loading an optical dipole trap,'' Phys. Rev. A 62, 013406 (1-13) 
(1999).
    129. B. P. Anderson, P. C. Halijan, C. E. Wieman and E. A. Cornell, 
``Vortex precession in Bose-Einstein condensates: observations with 
filled and empty cores,'' Physical Review Letters 85, pp. 2857-2860 
(2000).
    130. S. Duerr, K. W. Miller, and C. E. Wieman, ``Improved loading 
of an optical dipole trap by suppression of radiative escape,'' 
Physical Review A 63, 011401-1-4 (2000).
    131. J. L. Roberts, N. R. Claussen, S. L. Cornish, and C. E. 
Wieman, ``Magnetic field dependence of ultracold inelastic collisions 
near a Feshbach resonance,'' Phys. Rev. Lett. 85, pp. 728-731 (2000).
    132. N. R. Claussen, S. L. Cornish, J. L. Roberts, E. A. Cornell, 
C. E. Wieman, `` <SUP>85</SUP>Rb BEC Near a Feshbach Resonance,'' The 
17th International Conference on Atomic Physics (ICAP-2000) 17, pp. 
325-336 (2001).
    133. C. E. Wieman, ``A bibliography of atomic parity violation and 
electric dipole moment experiments,'' Flavor Physics for the 
Millennium, TASI 2000 (Jonathan L. Rosner, ed., World Scientific) 
(2001).
    134. J. L. Roberts, N. R. Claussen, S. L. Cornish, E. A. Donley, E. 
A. Cornell and C. E. Wieman, ``Controlled Collapse of a Bose-Einstein 
Condensate,'' Phys Rev Lett. 86, pp. 4211-4214 (2001).
    135. J. L. Roberts, J. P. Burke, Jr., N. R. Claussen, S. L. 
Cornish, E. A. Donley and C. E. Wieman, ``Improved characterization of 
elastic scattering near a Feshbach resonance in <SUP>85</SUP>Rb,'' 
Phys. Rev. A 64, 024702/1-3 (2001).
    136. W. C. Haxton and C. E. Wieman, ``Atomic Parity Nonconservation 
and Nuclear Anapole Moments,'' Annual Rev. of Nucl. Part. Sci. 51, pp. 
261-293 (2001).
    137. E. A. Donley, N. R. Claussen, S. L. Cornish, J. L. Roberts, E. 
A. Cornell and C. E. Wieman, ``Dynamics of collapsing and exploding 
Bose-Einstein condensates,'' Nature 412, pp. 295-299 (2001).
    138. C. E. Wieman, T. Applequist, D. Arnett, A. G. Cohen, S. N. 
Coppersmith, S. C. Cowley, P. Galison, J. B. Hartle, W. Haxton, J. N. 
Marx, C. A. Murray, C. F. Stevens, J. A. Tyson, J. M. Wilson, Physics 
in a New Era: An Overview, National Research Council, National Academy 
Press, Washington, D.C. (2001).
    139. C. E. Wieman, E. A. Donley, N. R. Claussen, S. T. Thompson, S. 
L. Cornish and J. L. Roberts, ``Quantum implosions and explosions in a 
<SUP>85</SUP>Rb BEC,'' in Proc., XV International Conf. on Laser 
Spectroscopy (2001).
    140. E. A. Donley, B. P. Anderson, and C. E. Wieman, ``New twists 
in Bose-Einstein condensation,'' Optics & Photonics News, October 
Issue, p.26 (2001).
    141. C. E. Wieman, ``Pursuing Fundamental Physics with Novel Laser 
Technology,'' in Laser Physics at the Limits (Figger, H., Meschede, D., 
Zimmermann, C., eds.) Springer Verlag, (2002).
    142. N. R. Claussen, E. A. Donley, S. T. Thompson and C. E. Wieman, 
``Microscopic Dynamics in a Strongly Interacting Bose-Einstein 
Condensate,'' Phys. Rev. Lett. 89, 010401 (2002).
    143. E. A. Cornell and C. E. Wieman, ``Bose-Einstein Condensation 
in a Dilute Gas: The First 70 Years and Some Recent Experiments (Nobel 
Lecture),'' ChemPhysChem 3, pp.476-493 (2002).
    144. E. A. Donley, N. R. Claussen, S. T. Thompson and C. E. Wieman, 
``Atom-Molecule Coherence in a Bose-Einstein Condensate,'' Nature 417, 
pp. 529-533 (2002).
    145. K. W. Miller, S. Duerr and C. E. Wieman, ``rf-induced Sisyphus 
cooling in an optical dipole trap,'' Phys. Rev. A 66, 023406 (2002).
    146. E. A. Cornell, C. E. Wieman, ``Nobel Lectures in Physics 
2001,'' Rev. Mod. Phys. 74, 3, pp. 875-893 (2002).
    147. N. R. Claussen, S.J.J.M.F. Kokkelmans, S. T. Thompson, E. A. 
Donley, E. Hodby and C. E. Wieman, ``Very high precision bound state 
spectroscopy near a <SUP>85</SUP>Rb Feshbach resonance,'' Phys. Rev. A 
67, 060701 (2003).
    148. E. A. Cornell and C. E. Wieman, ``Bose-Einstein Condensation 
in a Dilute Gas: The First 70 Years and Some Recent Experiments (Nobel 
Lecture),'' in Les Prix Nobel (2001).
    149. C. Wieman, ``Good science and business practices also yield 
positive educational results,'' Laser Focus World, Comment 40 (April 
2004).
    150. W. K. Adams, K. K. Perkins, M. Dubson, N. D. Finkelstein and 
C. E. Wieman, ``The Design and Validation of the Colorado Learning 
Attitudes about Science Survey,'' PERC Proceedings, edited by Jeff 
Marx, P. Heron, and S. Franklin, AIP Conf. Proc. (2004).
    151. K. K. Perkins, W. K. Adams, N. D. Finkelstein, and C. E. 
Wieman, ``Correlating Student Beliefs with Student Learning Using the 
Colorado Learning Attitudes about Science Survey,'' PERC Proceedings, 
edited by Jeff Marx, P. Heron, and S. Franklin, AIP Conf. Proc. (2004).
    152. C. Wieman, ``Firming Up Physics,'' AAPT Announcer 34, 6 
(Summer 2004).
    153. S. T. Thompson, E. Hodby, and C. E. Wieman, ``Spontaneous 
Dissociation of <SUP>85</SUP>Rb Feshbach Molecules,'' Phys Rev Lett. 
94, 020401 (2005).
    154. K. Perkins and C. Wieman, ``Free on-line resource connects 
real-life phenomena to science,'' Physics Education, pp. 93-95 (Jan 
2005).
    155. E. Hodby, S. T. Thompson, C. A. Regal, M. Greiner, A. C. 
Wilson, D. S. Jin, E. A. Cornell, and C. E. Wieman, ``Production 
Efficiency of Ultracold Feshbach Molecules in Bosonic and Fermionic 
Systems,'' Phys. Rev. Lett. 94, 120402 (2005).
    156. K. K. Perkins and C. E. Wieman, ``The surprising impact of 
seat location on student performance,'' The Physics Teacher 43, 30 
(2005).
    157. K. K. Perkins, W. K. Adams, N. D. Finkelstein, S. J. Pollock 
and C. E. Wieman, ``Correlating student attitudes with student learning 
using the Colorado Learning Attitudes about Science Survey,'' PERC 
Proceedings (2005).
    158. C. Wieman, ``Minimize Your Mistakes by Learning from Those of 
Others,'' Phys. Teach. 43, pp. 252-253 (2005).
    159. J. Barbera, K. Perkins, W. Adams, C. Wieman, ``Studying the 
importance of students' beliefs in chemistry education,'' Abstracts of 
Papers of the American Chemical Society 230, pp. U752-753 (Aug. 2005).
    160. C. Wieman, ``Engaging Students with Active Thinking,'' Peer 
Review (Winter 2005).
    161. S. Thompson, E. Hodby, C. Wieman, ``Ultracold Molecule 
Production Via a Resonant Oscillating Magnetic Field,'' Phys. Rev. 
Lett. 95, 190404 (November 2005).
    162. S. Singer, H. Dyasi, A. Eisenkraft, P. Hines, M. Lach, D. P. 
Licata, N. Pelaez, W. Sandoval, J. Spillane, C. E. Wieman, America's 
Lab Report: Investigations in High School Science, Committee on High 
School Science Laboratories: Role and Vision, Susan R. Singer, Margaret 
L. Hilton, and Heidi A. Schweingruber, eds. Board on Science Education, 
Center for Education, Division of Behavioral and Social Sciences and 
Education, The National Academies Press, Washington, D.C. (2005).
    163. C. E. Wieman and K. K. Perkins, ``Transforming Physics 
Education,'' Physics Today 58, pp. 36-41 (November 2005).
    164. C. E. Wieman, ``From the National Academies: Overview of the 
National Research Council's Board on Science Education and Personal 
Reflections as a Science Teacher,'' Cell Biology Education Features 4, 
pp. 118-120 (Summer 2005).
    165. C. E. Wieman, ``BEC: The First 10 Years, IN Laser 
Spectroscopy,'' Proceedings of the XVII International Conference, eds. 
E. A. Hinds, Allister Ferguson, Erling Riis, p. 139 (2005).
    166. C. E. Wieman and K. K. Perkins, ``Transforming Physics 
Education,'' Obzornik Za Matematiko In Fiziko, Slovene Translation, 
ISSN 0473-7466 (2006).
    167. S. B. McKagan and C. E. Wieman, ``Exploring Student 
Understanding of Energy through the Quantum Mechanics Conceptual 
Survey,'' PERC Proceedings 2005, AIP Press (2006).
    168. S. B. McKagan, K. K. Perkins, and C. E. Wieman, ``Reforming a 
large lecture modern physics course for engineering majors using a PER-
based design,'' PERC Proceedings 2006, AIP Press (2006).
    169. K. K. Perkins, W. Adams, M. Dubson, N. D. Finkelstein, S. 
Reid, C. E. Wieman, and R. LeMaster, ``PhET: Interactive Simulations 
for Teaching and Learning Physics,'' The Physics Teacher 44, 18 (2006).
    170. K. K. Perkins, M. M. Gratny, W. Adams, N. D. Finkelstein, and 
C. E. Wieman, ``Toward characterizing the relationship between 
students' self-reported interest in and their surveyed beliefs about 
physics,'' PERC Proceedings 2005, AIP Press, 818, 137 (2006).
    171. C. E. Wieman and K. K. Perkins, ``Transforming Physics 
Education,'' Parity, Maruzen Co., Japan, Japanese Translation 
(September 2006).
    172. W. K. Adams, K. K. Perkins, M. Dubson, N. D. Finkelstein and 
C. E. Wieman, ``A new instrument for measuring student beliefs about 
physics and learning physics: the Colorado Learning Attitudes about 
Science Survey,'' Physical Review Special Topics: Phys. Educ. Res. 2, 
1, 010101 (2006).
    173. S. Cornish, Sarah T. Thompson and Carl E. Wieman, ``Formation 
of bright matter-wave solitons during the collapse of Bose--Einstein 
condensates,'' Phys. Rev. Lett. 96, 170401 (May 2006).
    174. C. Wieman and K. Perkins, ``Online Interactive Simulations: A 
powerful tool for teaching science,'' Nature Physics 2, pp. 290-292 
(May 2006).
    175. C. Wieman and K. Perkins, ``Meeting challenges and facing the 
music in physics education--Reply,'' Physics Today 59, pp. 10-11 (Aug 
2006)
    176. N. D. Finkelstein, W. K. Adams, C Keller, K Perkins, C. E. 
Wieman and the PhET Team, ``High-Tech Tools for Teaching Physics: the 
Physics Education Technology Project,'' Journal of Online Teaching and 
Learning 2, No. 3 (September 2006).
    177. S. B. Papp and C. E. Wieman, ``Observation of heteronuclear 
Feshbach molecules from a <SUP>85</SUP>Rb-<SUP>87</SUP>Rb gas,'' Phys. 
Rev. Lett. 97, 180404 (November 2006).
    178. C. Wieman, ``Science Education in a New Century,'' Academic 
Matters, pp. 18-19 (Winter 2006).
    179. K. K. Perkins, J. Barbera, W. K. Adams, and C. E. Wieman, 
``Chemistry vs. Physics: A Comparison of How Biology Majors View Each 
Discipline,'' 2006 PERC Proceedings 883, 53 (2007).
    180. W. K. Adams and C. E. Wieman, ``Problem Solving Skill 
Evaluation Instrument -Validation Studies,'' PERC Proceedings 2006 
(2007).
    181. C. Wieman, ``A Scientific Approach to Science Education,'' 
Society for Teaching and Learning in Higher Education (STLHE) 
Newsletter (Fall 2007).
    182. C. E. Wieman, ``Why Not Try a Scientific Approach to Science 
Education?'' Change Magazine 39, 5 (September/October 2007).
    183. C. Wieman, Collected papers of Carl Wieman, World Scientific 
Publishing (2008).
    184. W. K. Adams, S. Reid, R. LeMaster, S. B. McKagan, K. K. 
Perkins, M. Dubson, and C. E. Wieman, ``A Study of Educational 
Simulations Part I--Engagement and Learning,'' Journal of Interactive 
Learning Research 19, 3, pp. 397-419 (July 2008).
    185. W. K. Adams, S. Reid, R. LeMaster, S. B. McKagan, K. K. 
Perkins, M. Dubson, and C. E. Wieman, ``A Study of Educational 
Simulations Part II--Interface Design,'' Journal of Interactive 
Learning Research 19, 4, pp. 551-577 (October 2008).
    186. J. Barbera, W. K. Adams, C. E. Wieman and K. K. Perkins, ``The 
Colorado Learning Attitudes about Science Survey: Modification and 
Validation for use in Chemistry,'' Journal of Chemical Education 85, 
pp. 1435-1439 (October 2008).
    187. C. E. Wieman, ``A Scientific Approach to Science Education,'' 
The Hertz Foundation Newsletter (Winter 2008).
    188. K. E. Gray, W. K. Adams, C. E. Wieman and K. K. Perkins, 
``Students know what physicists believe, but they don't agree: A study 
using the CLASS survey,'' Physical Review Special Topics--Physics 
Education Research 4, 020106 (November 2008).
    189. C. E. Wieman, W. K. Adams, and K. K. Perkins, ``Oersted Medal 
Lecture 2007: Interactive Simulations for Teaching Physics: What works, 
what doesn't, and why,'' Theme Double-Issue Computation and Computer-
Based Instruction--American Journal of Physics 76, pp. 393-9 (April/May 
2008).
    190. S. B. McKagan, K. K. Perkins, and C. E. Wieman, ``Why we 
should teach the Bohr model and how to teach it effectively,'' Physical 
Review Special Topics--Physics Education Research 4, 010103 (March 
2008).
    191. J. J. Zirbel, K.-K. Ni, S Ospelkaus, J. P. D'Incao, C. E. 
Wieman, J. Ye, and D. S. Jim, ``Collisional stability of fermionic 
Feshbach molecules,'' Physical Review Letters 100, 143201 (11 April 
2008).
    192. S. B. McKagan, K. K. Perkins, M. Dubson, C. Malley, S. Reid, 
R. LeMaster, and C. E. Wieman, ``Developing and researching PhET 
simulations for teaching quantum mechanics,'' Theme Double-Issue 
Computation and Computer-Based Instruction--American Journal of Physics 
76, pp. 406-417 (May 2008).
    193. J. J. Zirbel, K.-K. Ni, S. Ospelkaus, T. L. Nicholson, M. L. 
Olsen, P. S. Julienne, C. E. Wieman, J. Ye, and D. S. Jin, 
``Heteronuclear molecules in an optical dipole trap,'' Physical Review 
A. 78, 013416 (July 2008).
    194. S. B. Papp, J. M. Pino, and C. E. Wieman, ``Tunable 
miscibility in a dual-species Bose-Einstein condensate,'' Physical 
Review Letters 101, 040402 (July 2008).
    195. S. B. Papp, J. M. Pino, R. J. Wild, S. Ronen, C. E. Wieman, D. 
S. Jin, and E. A. Cornell, ``Bragg Spectroscopy of a Strongly 
Interacting <SUP>85</SUP>Rb Bose-Einstein Condensate,'' Physical Review 
Letters 101, 135301 (26 September 2008).
    196. C. E. Wieman, W. K. Adams, and K. K. Perkins, ``PhET: 
Simulations that Enhance Learning,'' Science 322, pp. 682-683 (October 
2008).
    197. J. Barbera and C. E. Wieman, ``Effect of a Dynamic Learning 
Tutorial on Undergraduate Students' Understanding of Heat and the First 
Law of Thermodynamics,'' The Chemical Educator 14, pp. 45-48 (2009).
    198. S. B. McKagan, K. K. Perkins, M. Dubson, C. Malley, S. Reid, 
R. LeMaster, and C. E. Wieman, ``A deeper look at student learning of 
quantum mechanics: the case of tunneling,'' Phys Rev. ST Physics Ed. 
Research 4, 020103 (March 2008).
    199. J. Barbera, W. K. Adams, C. E. Wieman, and K. K. Perkins, 
``Modifying and Validating the Colorado Learning Attitudes about 
Science Survey for Use in Chemistry,'' Journal of Chemistry Education 
85, pp. 1435-1439 (October 2008).
    200. S. B. McKagan, W. Handley, K. K. Perkins and C. E. Wieman, ``A 
research-based curriculum for teaching the photoelectric effect,'' 
American Journal of Physics 77, pp. 87-94 (January 2009).
    201. M. K. Smith, W. B. Wood, W. K. Adams, C. E. Wieman, J. Knight, 
N. Guild, and T. Su, ``Why Peer Discussion Improves Student Performance 
on In-Class Concept Questions,'' Science 323, pp. 122-124 (January 
2009).
    202. C. E. Wieman, ``Why Not Try a Scientific Approach to Science 
Education?'' University General Education Bulletin at the Chinese 
University of Hong Kong (2009).
    203. N. S. Podolefsky, W. K. Adams, and C. E. Wieman, ``Student 
Choices when Learning with Computer Simulations,'' PERC Proceedings 
2009, AIP Press (2009).
    204. H. Alhadlaq, F. Alshaya, S. Alabdulkareem, K. K. Perkins, W. 
K. Adams, and C. E. Wieman, ``Measuring Students' Beliefs about Physics 
in Saudi Arabia,'' PERC Proceedings 2009, AIP Press (2009).
    205. C. E. Wieman, ``Galvanizing Science Department,'' Science 325, 
5, p. 1181 (September 2009).
    206. W. K. Adams, H. Alhadlaq, C. Mally, K. K. Perkins, J. Olson, 
F. Alshaya, S. Alabdulkareem, and C. E. Wieman, ``Making On-line 
Science Course Materials Easily Translatable and Accessible Worldwide: 
Challenges and Solutions,'' The Multimedia in Physics Teaching and 
Learning (MPTL) Conference Proceedings (submitted Sept. 2009).
    207. C. E. Wieman, ``Why Not Try a Scientific Approach to Science 
Education?'' Taking Stock: Research on Teaching and Learning in. Higher 
Education, School of Policy Studies of Queen's University at Kingston & 
McGill-Queen's University Press (2010).
    208. C. E. Wieman, K. K. Perkins, S. L Gilbert, ``Transforming 
Science Education at Large Research Universities: A Case Study in 
Progress,'' Change: The Magazine of Higher Learning (March/April 2010).
    209. W. K. Adams and C. E. Wieman, ``Development and validation of 
instruments to measure learning of expert-like thinking,'' 
International Journal of Science Education (submitted).
    210. C. E. Wieman, W. K. Adams, P. Loebelin, K. K. Perkins, 
``Teaching Physics Using PhET Simulations,'' The Physics Teachers 48, 
pp. 225-227 (April 2010).
    I also have written a number of publications in relationship to 
scientific conferences. These publications overlap with the material of 
the papers I listed above.
Other publications not listed above:

  <bullet> Football scandal OpEd, 2/2004, Boulder Daily Camera.

  <bullet> The Optimized University. 2006 A commissioned paper for the 
        BC ministry of education, posted online and subsequently 
        reprinted online in various places.

  <bullet> Rebuilding Science OpEd, approximately 2002, Rocky Mountain 
        News and/or Denver Post.

  <bullet> The importance of science education OpEd, 9/2007, various 
        Canadian papers.

    Senator Pryor. Thank you.
    Let me start off here. Senator Udall, I have a few 
questions and I'll turn it over to you, and I may clean up 
unless you want to do a second round.
    But first, let me start with your background. I think it's 
interesting that you nearly failed your first physics class. 
That gives hope to a lot of first year college students, I'm 
sure. But let me ask a question, and it may be the same 
question or it may be two different questions, but just for our 
background on the Subcommittee: Would you describe your 
research on atomic physics and laser spectroscopy and-or--
again, it may be the same question--tell us about the Bose-
Einstein--is it a condensate? Is that what it is?
    Dr. Wieman. Condensate, yes.
    Senator Pryor. So tell us about those?
    Dr. Wieman. OK. So they're actually somewhat different 
things. For many years I carried out an extensive program of 
using laser light to probe atoms and study their structure, 
learn about how they behave, how they interact with light, and 
a whole variety of ways that, if we probe more sensitively, we 
could understand more details about the structure of atoms.
    Out of that work also, as we came to understand better 
about atoms and how they interacted with light, we came to 
understand how we could control them better as well. Part of 
that control meant that the scientific community--and Steve Chu 
was one of the leaders in this--part of that control was how 
you could use light to actually slow down atoms, if you did 
just exactly the right things.
    Senator Pryor. So light can actually change the behavior of 
atoms?
    Dr. Wieman. Light can actually change them. You can think 
about light, laser light, as like little ping-pong balls and an 
atom as a bowling ball. An atom in the air here is whizzing 
along and you're bouncing these little particles of light off 
it, and they're giving it little kicks. And if the light has 
just the right characteristics, those lots of little kicks slow 
down that bowling ball atom.
    It turns out a slow atom is a cold atom. So that led us to 
understand how you could make them much colder, you could hold 
them where you want them. That has technological implications. 
We can make better atomic clocks and things. But it also led us 
to realize that we could make them so slow, where we possibly 
could make them so slow, using these new cooling techniques, 
that we could reach this kind of holy grail myth of physics 
which was the Bose-Einstein condensate.
    This was a new form of matter that Einstein predicted way 
back in 1924, just looking at the basic equations of physics. 
But it was predicted to happen at ridiculously cold 
temperatures and so nobody really took it very seriously.
    We figured out how to get things much, much colder than 
anyone had cooled atoms before, using this new laser cooling 
technology, and we saw that Einstein was right. This strange 
new material formed. It's fascinating to study. It doesn't 
behave like anything anybody's ever seen before, and we learned 
lots about quantum physics as a result of looking at it.
    Senator Pryor. Does that mean you actually stop the atom?
    Dr. Wieman. We get them very, very, very close to being 
stopped.
    Senator Pryor. How does that become a new type of matter?
    Dr. Wieman. The getting them cold doesn't make them a new 
type of matter. What makes them a new type of matter is, as you 
get things colder there are the laws of quantum physics that 
come into play when we get Bose condensation. People thought 
about matter being described by these laws of quantum physics 
that are important on the very, very tiny scale, but on the 
bigger scale these weird, bizarre quantum behaviors are never 
seen.
    But if you get things colder, it turns out that the quantum 
waviness gets bigger and bigger. So if you get things so cold 
that the quantum waviness of one atom starts to overlap the 
quantum waviness of its neighbor, then instead of acting like 
two independent atoms any more, they turn into one gigantic 
quantum wave. And that's what a Bose condensate is; it's a 
whole bunch of atoms no longer acting like little particles 
that we're used to thinking about atoms as, but as this 
gigantic single quantum wave without any individual identities 
at all.
    I realize that all sounds very strange and sort of weird, 
and it's because it is strange and weird, but that's the way 
nature behaves.
    Senator Pryor. Senator Udall.
    Senator Tom Udall. Thank you, Chairman Pryor.
    It's very good to have you here today, Dr. Wieman, and we 
look forward to your work in the executive branch, especially 
in the teaching area. As a researcher, you relied on the NIST 
facility in Boulder, Colorado, to help achieve a scientific 
breakthrough that led to your joint Nobel Prize. NIST and our 
national laboratories contribute much to science and apply some 
of the brightest minds in the country to some of the most 
significant challenges facing our Nation, from fighting 
terrorism to achieving energy independence.
    The national labs I think are really crown jewels in our 
country's research infrastructure. As Associate Director for 
Science, how would you employ the diverse knowledge and work of 
the national labs in your efforts to improve our Nation's 
competitiveness and maintain our leadership in scientific 
research?
    Dr. Wieman. So I certainly agree with you on the value of 
national labs. As you point out, my close friend and 
collaborator at Cornell is a NIST employee and he brought 
enormous contributions to making all this work possible. And my 
wife actually directed a large research group in NIST for many 
years. So I certainly won't disagree about their importance.
    I think really, as Associate Director of OSTP if confirmed, 
I'd be looking to work, to support the strength and health of 
all of the research infrastructure in the U.S. and the national 
labs are a major component of that, along with the other 
national facilities and the research universities. But 
absolutely, the national labs do play a large part in that and 
I would see that as an important part of my responsibility, to 
make sure they're healthy and properly supported.
    Senator Tom Udall. Well, and we really look forward to 
working with you. We have two of the great national 
laboratories in New Mexico, Los Alamos National Laboratory and 
Sandia National Laboratory, that do a lot of the work that I 
talked about in terms of energy independence, helping the 
warrior out in the field, and a variety of other things.
    Let me ask you a little bit about education because I know 
that's what you really want to focus on. You note in your 
testimony that you attended a tiny rural school in western 
Oregon and relied on a public library in a nearby town to 
supplement your education. My home State of New Mexico also 
faces significant challenges when it comes to rural schools and 
especially schools on tribal lands.
    Do you have any thoughts on what efforts have been 
successful to overcome these challenges to teaching science in 
rural schools? Do you have any recommendations for how better 
broadband connectivity or access to other technologies might 
put students in rural schools on a more even footing with their 
peers in metropolitan areas? And also, I talked to you before 
the hearing about how you've developed techniques and 
protocols, I think, to teach science to children, and I'm 
interested in what are those protocols and how do you approach 
it, and especially dealing with disadvantaged students.
    Dr. Wieman. Starting with the issue of the rural schools, I 
think this is a very important issue in the country as we try 
and look at the broader workforce and participation issues of 
how we can do a better job there, because it is a real 
challenge if you're out at a school of seven students in a 
grade, like I had, having a good science teacher and good 
science teaching there.
    I actually started what's now quite a major project in 
developing on-line resources, interactive simulations for 
teaching science. I think we had about 10 million run off our 
website last year, so it's actually one of the major on-line 
education resources. We do a lot of work on research on how to 
make these effective, how people can learn from them.
    So, I see there's tremendous potential to be tapped there, 
and it's something I've been quite involved in and would 
certainly see an important aspect of working with the 
Committee, if confirmed, to advance this.
    I will say, though, that, just on the subject of rural 
schools, part of what our research shows is the same as 
everyone else's: that you have to have an effective teacher in 
the classroom, though. So I think that one of the other issues 
one has to be addressing is the shortage of well-qualified STEM 
teachers in this country, particularly in rural areas, and how 
we can better address that need.
    Senator Tom Udall. You really hit it on the head, I think. 
Thank you.
    I think I'm in good shape.
    Senator Pryor. Thank you, Senator Udall.
    Let me follow up on that last point. How can policymakers 
here in Washington improve undergraduate physics courses? How 
can we improve those?
    Dr. Wieman. Well, this is something that I've been 
devoting, well, really quite a number of years, but the last 3 
years full-time, to thinking how we can address this. I think 
at this point I'm willing to make the claim that we know how to 
do this. There's a small community, of which I count myself 
part of, that has been approaching the learning of science as a 
science and carrying out systematic research about what works 
and what doesn't work and why.
    I think we understand now the basic principles about how to 
do much more effective teaching. I've got some recent 
experiments where we've been able to come in and redesign a 
course and get over a factor of two improvement compared to the 
way a good, qualified teacher has been doing it, and the amount 
of learning they've been getting.
    So the real challenge now is how to get that implemented, 
how to do the policy of changing the practices so that all the 
teachers are following effective principles. I can't say that 
I'm ready to pronounce, do A, B, C, and D and it'll solve this. 
I can say that I think there are some important ideas out 
there. It's an area that I come to from the side of 
understanding what people need to do. I am not an expert on how 
to make policy that accomplishes that.
    I can see that, if I'm confirmed to this position, this 
would be something I would be working with this committee and 
others, to figure out how to best implement the policy to 
achieve the results that we are now pretty convinced we know 
are possible, and we know how to do it. I think there are 
opportunities through looking carefully at how the Federal 
dollars are spent and the Federal programs to look carefully at 
what the efficiency and the effectiveness, and ask some hard 
questions about that and make sure that they're pursuing 
directions that we see are more effective.
    Senator Pryor. According to this year's Science and 
Engineering Indicators Report of the National Science Board, 
although America continues to lead in science and engineering, 
Asian countries are closing the gap through significantly 
increased investments in science and engineering, business 
investment, and education and infrastructure. So we may still 
be dominant, but it sounds like our dominance is fading.
    How will you apply your knowledge in an attempt to redirect 
America's course and get us going in the right direction again?
    Dr. Wieman. First, I'm not sure we're going in such a wrong 
direction. I think you have to look at this from the 
perspective, that for the Asian countries, an awful lot of what 
has made them successful is they've been copying us. They've 
been changing. If we look at their school systems they look 
better, but that is really at the K-12 level. There's an awful 
lot at the undergraduate level where we do better. We're doing 
better than they have in the past, and they're copying this. 
And at the graduate level they're putting more money in.
    So I think it's an issue of everybody's getting faster. We 
have to figure out how we can speed up. I think that that 
involves--well, realistically, we're never going to have the 
dominance we once did. There were world factors that just 
enhanced that. Everybody else is doing better now.
    And it's not so terrible. Science is really a global 
activity. We all do better when some of us do better. But at 
the same time, we'd like to keep the U.S. at the cutting edge. 
That means looking hard at what are the gaps, where are places 
we really have unique strengths. We can enhance those. I think 
there are certainly a number of areas where the U.S. is still 
unprecedented, certainly, in innovation, entrepreneurial, 
dynamic, independent ways of thinking. The rest of the world 
would still love to be like we are.
    But if we can provide the work force, the education, that's 
pushing our students to the front to build on those, I think we 
can do better.
    Senator Pryor. Are you familiar with the America Competes 
Act?
    Dr. Wieman. Yes.
    Senator Pryor. It expires at the end of Fiscal Year 2010. 
What provisions of America Competes have proven to be the most 
successful and which programs do you think should be 
strengthened?
    Dr. Wieman. Boy, that's a good question, one I'm not sure 
I'm yet qualified to answer. I'd have to look carefully at it.
    Senator Pryor. Sure. Well, as we go through a 
reauthorization, those are the kind of questions we'll be 
asking, basically how is it working, are there things that we 
need to improve or delete or change, that kind of exercise. So 
I hope you can help us through that as we go through.
    Dr. Wieman. Yes, and I fully would expect to and want to do 
exactly that. It's just that hasn't been my day job right now, 
so I'm not quite ready to weigh in.
    Senator Pryor. I understand.
    STEM is a program that I think has been great in a lot of 
ways, and NASA has been kind of a lead agency. Do you think 
that NASA should play a leading role with STEM?
    Dr. Wieman. In the education aspects? I think that's 
unclear. The answer to that's kind of unclear. I think NASA has 
a kind of unique role in inspiring people. I wanted to be an 
astronaut when I was a child. There's something really dramatic 
and inspiring about rockets blasting into outer space to 
explore the universe. But at the same time, NASA does not bring 
much expertise to exactly what's really critical to achieving 
learning in science, engineering, and so on.
    part of my work as chairing the Board on Science Education 
at the NRC saw this. We were charged to review NASA education 
programs. Out of that work, it was clear that they needed to be 
looking a lot harder at accountability, at how well their 
programs are really working and were they really being guided 
by the best understanding of effective STEM education.
    So I think it would be probably best to have them focus on 
what they're really uniquely good at and the aspects of 
education they're uniquely good at, but not necessarily turn 
everything over to them. It's getting the right balance.
    Senator Pryor. That's fair enough.
    The last question I really have is about science parks. 
Some people call these innovation centers or business 
incubators. There are different words and maybe different 
nuances in what they are. But generally, you know what they 
are. They're places where science, engineering, and what-not 
come together and try to be innovative and get things out to 
the marketplace, etcetera.
    I've seen first-hand in my state a science park really does 
some great things at the University of Arkansas. It has just 
been, I think, a real success story. We have a couple of other 
sites that are trying to get up and running in our state.
    But let me ask you from your perspective, to what extent do 
you believe that science parks can contribute to scientific 
discovery and to technological advances?
    Dr. Wieman. I think science parks can be wonderful. We've 
got spectacular examples. You list some in Arkansas. Silicon 
Valley, and Stanford, the Stanford Research Park, is a 
tremendous example of where it has really been uniquely 
powerful at both taking the fundamental research out of the lab 
and turning it into innovative products, and then at the same 
time turning those products back into the research lab.
    Certainly everybody knows about the transistor and 
integrated electronics. But for my field of lasers, in fact, 
there has been a tremendous amount of work, even from my 
graduate school days on up, in the area of laser research 
turning into products through the Stanford science park. And 
you've got examples at many other universities.
    So I think they really have demonstrated they can be 
tremendously valuable. I think it is important to put in a note 
of caution, though, because people talk a lot more about the 
ones that are successful. They don't talk, people don't 
advertise the failures, so often. And I do know there are 
failures of science parks, where universities or regions tried 
to start one up. The University of Colorado is a good example. 
They put a lot of money into it, but they really didn't have 
all the right pieces, and it just didn't pan out.
    So I think, while I certainly would endorse the value of 
science parks, I think it's important, if one's looking at 
policy to advance these, to look very carefully at what 
elements you have to have in place to make them successful and 
learn from the failures in terms of making effective ones.
    Senator Pryor. I think part of the key there is recognizing 
your strengths and having some flexibility and the appropriate 
expectations. I know one of the advantages of the one that's in 
Fayetteville, Arkansas, at least what I hear about it, is that 
because the University of Arkansas is a relatively small 
university--it's not a huge university; it only has about maybe 
16 or 17,000 students--because it is smaller, that's actually a 
strength because the faculty and the researchers tend to know 
each other, they work in closer proximity, and they say that 
they're better there in sharing ideas and collaborating 
together than some of the older, more established institutions, 
if that makes sense, where you kind of get your area of 
expertise and you're kind of so big that's all you do.
    The other thing that they really focus on in Arkansas is 
trying to bring these ideas actually to the marketplace. So 
like for example, in nanotechnology, their effort there, they 
don't just call it nanotechnology. They like to call it ``nano 
manufacturing,'' because they really want to try to get these 
ideas out of the lab and get them out in the marketplace.
    So I know not everybody has the same mission, nor should 
they, because there's going to be different strengths and 
different roles as we do this. But I agree, I think that they 
can play a very significant role in trying to stimulate more 
scientific activity, research activity, innovation, technology.
    What we're going to do, Dr. Wieman, is we're going to leave 
the record open until 6 p.m. tomorrow, for all the Senators and 
staffs who want to ask you more questions, like they want to 
get you to explain this Bose-Einstein thing one more time or 
something like that. We're going to leave it open until 
tomorrow evening.
    So what we'd ask all the staffs to do and all the offices 
to do is to get those as quickly as possible over here to the 
Committee, and then we'll get those to you, and a rapid 
response would be very much appreciated.
    But I want to thank you for your willingness to take on 
this public service and really do some great things there and 
play a key role in developing this policy and giving advice to 
the folks who need it. So I want to thank you for being here 
today and thank you for all the folks you brought with you.
    So I thank you and we'll adjourn the hearing.
    [Whereupon, at 3:31 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr Chairman.
    Dr. Wieman, we had the opportunity to meet last month and from that 
conversation, as well as from your testimony here today, I can say that 
I'm impressed with your zeal for Science, Technology, Engineering, and 
Math (STEM) issues. In your written testimony you state, ``Our global 
economy is increasingly based on science and technology. To maintain 
U.S. economic competitiveness and leadership in innovation, we need to 
also have leadership in STEM education.''
    Amen--as Chairman of the Science and Space Subcommittee I share 
your enthusiasm on this subject and couldn't agree with you more. The 
efforts we make in STEM education today will pay dividends in the 
future as the next generation of leaders comes to maturity and strives 
to keep the United States as the world's leader in these areas.
    Today I'd like to explore these subjects with you a little further 
and to gain a better understanding of some of the specific actions you 
will take in this important role we are considering for you. I look 
forward to our exchange.
    Thank you, Mr Chairman.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Carl E. Wieman, Ph.D.
    Question 1. During the launch of the ``Educate to Innovate'' 
Campaign in November 2009, the President called for the expansion of 
STEM opportunities for all young people. NASA Administrator Charles 
Bolden has also identified STEM education as a pressing need.
    In response to this need, NASA is launching the Summer of 
Innovation program to increase the scope and scale of the agency's 
commitment to STEM. The Summer of Innovation is designed to improve 
STEM teaching and learning in partnership with Federal agencies, 
philanthropic institutions, universities, industry, museums, nonprofit 
organizations, and states and localities.
    Dr. Wieman, please discuss the specific actions you intend to take 
to meet the President's call to action regarding STEM. How will you 
work with NASA to ensure the Nation's space and aeronautics programs 
are best used to inspire and educate the nation, especially young 
people?
    Answer. We know that too often, even students who are proficient in 
STEM subjects choose not to pursue them. The STEM ``pipeline'' narrows 
dramatically in the older grades, due especially to attrition of girls 
and minorities, and it narrows again within the first years of college. 
We can and must do better.
    I believe NASA has unique assets that can make a significant 
difference in addressing this challenge. First is its ability to 
inspire and connect with Americans' inherent enthusiasm for discovery. 
As I mentioned during my hearing, I was inspired by the space program 
as a young boy and even wanted to be an astronaut. As the President has 
stated: ``The space program has always captured an essential part of 
what it means to be an American--reaching for new heights, stretching 
beyond what previously did not seem possible. . . . Space exploration 
is not a luxury, it's not an afterthought in America's quest for a 
brighter future--it is an essential part of that quest.'' I think we 
can do much more to bring that spirit of discovery and imagination into 
every community and classroom. NASA's ``Summer of Innovation'' has that 
potential.

    Question 2. In 2007 Congress passed the America COMPETES Act, 
landmark legislation intended to increase the Nation's investment in 
research and development (R&D), and in STEM education. Authorizations 
for the America COMPETES Act expire this year and, as we consider a 
reauthorization and the President's FY 2011 budget proposal, we need to 
evaluate the effectiveness of the programs funded by COMPETES in 
increasing American innovation and competitiveness.
    Dr. Wieman, please comment on the COMPETES Act as implemented thus 
far. What changes to the Act would you recommend as we reconsider a 
reauthorization this year?
    Answer. The America COMPETES Act provides a valuable guide to 
Federal policies in innovation, competitiveness, and STEM education. As 
with any program of this scope, a review should be welcomed: to 
strengthen the parts that have the most capacity to leverage the 
American economy and secure America's future, and to trim or amend 
those parts that have proven less valuable.
    The original COMPETES Act identified three key science agencies--
the National Science Foundation, the DOE Office of Science, and the 
National Institute of Standards and Technology laboratories--as 
essential to our Nation's future prosperity and to preserving America's 
place as the world leader in science and technology. I support the 
Administration's ongoing efforts to ensure that the doubling trajectory 
for these three agencies remains on track.
    One critical role a review of the Federal STEM education program 
can do is to look carefully at the STEM education system from an 
overall perspective, supporting work to understand what the essential 
components are and how they are linked, and what is necessary for each 
component to make the final result most effective. Many STEM education 
programs are piecemeal, short-term attempts to deal with what is a 
complex, long-term problem. The substantial Federal investment in STEM 
education requires improved efficiencies and effectiveness for these 
investments. Congress made some attempts at this by not funding some 
programs in the original authorization. We should streamline 
duplicative programs. The reauthorization is an opportunity to 
articulate the highest-priority initiatives that truly have the promise 
of making significant impacts on innovation and competitiveness and to 
leave out studies, programs, or process requirements with minimal 
impacts or minimal prospects for funding.
    If confirmed, I would work with this committee to streamline the 
STEM education components of the bill to ensure the maximum impact on 
U.S. STEM education from the Act.

                                  <all>

</pre></body></html>
